<html>
<title> - [H.A.S.C. No. 113-5] FRAMEWORK FOR BUILDING PARTNERSHIP CAPACITY PROGRAMS AND AUTHORITIES TO MEET 21ST CENTURY CHALLENGES</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
                          [H.A.S.C. No. 113-5] 

                         FRAMEWORK FOR BUILDING 

                     PARTNERSHIP CAPACITY PROGRAMS 

                        AND AUTHORITIES TO MEET 

                        21ST CENTURY CHALLENGES 

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                           FEBRUARY 14, 2013


                                     
               [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

79-493 PDF                       WASHINGTON : 2013 





                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                  Kim Shaw, Professional Staff Member
                 Mark Lewis, Professional Staff Member
                      Aaron Falk, Staff Assistant



                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Thursday, February 14, 2013, Framework for Building Partnership 
  Capacity Programs and Authorities to Meet 21st Century 
  Challenges.....................................................     1

Appendix:

Thursday, February 14, 2013......................................    35
                              ----------                              

                      THURSDAY, FEBRUARY 14, 2013
FRAMEWORK FOR BUILDING PARTNERSHIP CAPACITY PROGRAMS AND AUTHORITIES TO 
                      MEET 21ST CENTURY CHALLENGES
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2

                               WITNESSES

Sheehan, Hon. Michael, Assistant Secretary of Defense for Special 
  Operations and Low Intensity Conflict, U.S. Department of 
  Defense........................................................     4
St. Laurent, Janet, Managing Director, Defense Capabilities and 
  Management Team, U.S. Government Accountability Office.........     9
Wolff, LTG Terry, USA, Director, Strategic Plans and Policy (J5), 
  Joint Staff, U.S. Department of Defense........................     6

                                APPENDIX

Prepared Statements:

    McKeon, Hon. Howard P. ``Buck''..............................    39
    Sheehan, Hon. Michael........................................    43
    Smith, Hon. Adam.............................................    41
    St. Laurent, Janet...........................................    65
    Wolff, LTG Terry.............................................    55

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    Ms. Bordallo.................................................    93
    Mr. Enyart...................................................    94
    Mr. Larsen...................................................    93
    Mr. Wilson...................................................    93

Questions Submitted by Members Post Hearing:

    Mr. Barber...................................................    98
    Mr. McKeon...................................................    97
FRAMEWORK FOR BUILDING PARTNERSHIP CAPACITY PROGRAMS AND AUTHORITIES TO 
                      MEET 21ST CENTURY CHALLENGES

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Thursday, February 14, 2013.
    The committee met, pursuant to call, at 10:05 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order.
    I would like to welcome everyone to today's hearing on ``A 
Framework for Building Partnership Capacity Programs and 
Authorities to Meet 21st Century Challenges.''
    Although building partnership capacity may seem like a 
broad term, this is an important area for the committee's 
oversight of the recent defense strategy which places great 
emphasis on the important role of partnerships to U.S. national 
security.
    Likewise, we have enacted significant legislation in this 
area because the committee has supported the notion that 
military commanders need to build certain capacities in partner 
nations to satisfy specific security theater requirements.
    We heard testimony yesterday about the fiscal challenges 
the military faces as it deals with implementing sequestration, 
a long-term continuing resolution, and the underresourcing of 
overseas contingency operations accounts. These constraints 
will disproportionally hurt the Department's operations and 
maintenance account from which the building partnership 
capacity authorities are also funded.
    Given this fiscal environment, the emphasis on building 
partnership capacity and last year's defense strategic 
guidance, and the global threats to U.S. national security 
interests, this hearing is the beginning of a continuing 
discussion on what is the proper roles for these BPC [Building 
Partnership Capacity] authorities.
    In spite of our support for these authorities, many 
questions remain. What is the right amount of funding? What is 
the right balance between the Defense and State Departments in 
funding, strategizing, and executing these authorities? What is 
the right level of engagement and focus by the combatant 
commands and services on these activities? And is it a 
plausible assumption that partner nations will in fact use 
their new capabilities to act consistent with U.S. national 
security objectives?
    Congress is the ultimate decisionmaker on funding. Our 
oversight responsibilities also require us to understand the 
impact of these authorities on U.S. national security interests 
and the ability of the COCOMs [combatant commanders] and 
Services to execute these authorities without compromising 
their key priorities and core capabilities.
    Furthermore, this committee has expressed concern about the 
proliferation and duplication of BPC authorities. The 
authorities to be discussed today make up at least $750 million 
per year in authorized funding, not including over a billion a 
year in counternarcotics activities, and the trend is on the 
rise.
    In today's fiscal environment, it is important that the 
Defense Department, COCOMs, and Services prioritize these BPC 
authorities and activities in coordination and consultation 
with the State Department. And it is critical that the 
Administration understand Congress's intent in authorizing 
these authorities and the need to strategize, plan, fund, 
execute, and assess these authorities.
    Mr. Smith.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 39.]

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman, and thank you for 
holding this hearing. I think this is an incredibly important 
topic and a central tenet in our national security policy going 
forward.
    We have global responsibilities and global interests. Go 
anywhere in the world and there is a U.S. interest there from 
Africa to Latin America to Asia. We have a lot of places that 
we are trying to influence events and obviously with limited 
resources. So to the extent that we can build partner capacity, 
develop partnerships with other nations, it can be a force 
multiplier for us in achieving our interests and certainly 
there have been a great many successes.
    I think most notably in Somalia, which was and continues to 
be a significant challenge but has at least been contained with 
Al Shabaab's efforts there, and we did that with a fairly light 
U.S. footprint. We did it because we were able to build 
partnerships with Ethiopia, Kenya, and Uganda and other African 
nations as well and work with them to contain the threat there 
and the capacity that we built amongst those nations was 
incredibly helpful to us and we are going to have a similar 
challenge up in Mali trying to find partners up there that we 
can work with.
    I think the training that our military does to build the 
capacity of these nations is an incredible asset for our 
national security strategy. You know, it is a broad challenge. 
I agree with many of the chairman's remarks in terms of what we 
need to look at in terms to make this work better because it is 
not just Department of Defense.
    The Department of Defense has a variety of different 
programs, but when you are thinking about building the capacity 
of partner nations, security is one element, but governance, 
rule of law, their education system, health care system, all of 
that too is important.
    So it becomes a whole-of-government effort that we need to 
work on, and I do believe the Department of Defense in recent 
years has done a great job of working with the other aspects of 
U.S. interests, you know, USAID [United States Agency for 
International Development], State Department.
    I was in the Philippines a few years ago, looking at one of 
our efforts down there and was really impressed at how closely 
the Special Operations Command was working with USAID on the 
projects that were necessary to build the capacity of the local 
population there.
    I think figuring out how those interagency pieces need to 
work is one of the key challenges because we frequently hear 
the complaint that the Department of State and others have 
large numbers of responsibilities; DOD [Department of Defense] 
tends to have the most money. As a result of that, DOD has 
developed a number of development programs, other things that 
arguably are crossing over into what the lane traditionally 
would be USAID or other development agencies.
    So figuring that out, figuring how to make sure everyone in 
our Government works together in capacity building is a 
critically important piece of this, but for our committee's 
purposes, first thing is to understand the DOD programs and 
those specific programs that are in place to help us build 
partner capacity.
    So overall, I view this as an incredible success for us in 
the last 10 years. We want to figure out how to build on that, 
how to make it work better, how to get the whole-of-government 
approach to maximize the efficiency of this effort. I think 
this hearing is incredibly important.
    I look forward to testimony and questions.
    I thank the Chairman for holding it.
    I yield back.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    The Chairman. Thank you.
    To testify before the committee today, we have Mr. Michael 
Sheehan, the Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict; Lieutenant General Terry 
Wolff, Director, Strategic Plans and Policy (J5) the Joint 
Staff; Ms. Janet St. Laurent, Managing Director, Defense 
Capabilities and Management, U.S. Government Accountability 
Office.
    I would like our witnesses--I would like to thank all of 
you for being here today, for your participation and for your 
contributions that you are making in this effort. And also I 
would like to note that the Department of State who has a key 
role to play in this discussion was also invited to 
participate, but declined.
    We will continue to engage State in partnership with the 
Foreign Affairs Committee in this ongoing dialogue.
    Secretary Sheehan.

   STATEMENT OF HON. MICHAEL SHEEHAN, ASSISTANT SECRETARY OF 
DEFENSE FOR SPECIAL OPERATIONS AND LOW INTENSITY CONFLICT, U.S. 
                     DEPARTMENT OF DEFENSE

    Secretary Sheehan. Thank you, Chairman McKeon, Ranking 
Member Smith. Thank you for very well framing the issue that we 
are going to discuss this morning.
    And distinguished members of the committee, thank you for 
the opportunity to talk with you this morning about building 
partner capacity. I provided a longer statement for the record. 
Myself, and Lieutenant General Wolff will make some brief 
remarks and get quickly to your questions.
    I appreciate the opportunity to discuss these programs, 
define what they are, discuss their strengths and weaknesses, 
and outline the way forward in this critical area of our 
defense strategy. DOD has a wide range of authorities to assist 
partners in developing their defense capabilities.
    The most important of these authorities are Section 1206, 
to Train and Equip Counterterrorism Units, Section 1207N, which 
provided funding for two specific theaters of actions against 
A.Q. [Al Qaeda] affiliates in Yemen and in East Africa, and the 
Global Security Contingency Fund, which is a new pilot program.
    The Global Security Contingency Fund, GSCF as you know, is 
a joint program between State and DOD, which authorized a 
pooled fund of up to $250 million to meet emergent security 
issues. As part of this program, we started what we call a soft 
carve out specifically designed to support Admiral McRaven's 
initiative to build a global soft network with Special 
Operations forces around the world.
    We have just concluded the first year of this program, and 
although it was admittedly a bumpy process, I think the fund 
has shown promise as an additional authority to pursue our 
defense needs.
    I also want to mention Section 1208, which is not really a 
BPC authority as it is designed to directly support our 
operations, but it also has the added benefit of building 
important C.T. [counterterrorism], counterterrorism 
capabilities, in some of the most sensitive areas with some of 
the most sensitive units in areas plagued by Al Qaeda presence.
    In addition to, we have various authorities that enable us 
to shape the local defense institutions at their national level 
to ensure the units that we equip and train are properly 
managed by the leadership of the host countries. These programs 
include Minister Defense Advisory Program or MODA, the Defense 
Institution Reform Initiative or DIRI, and our Counterterrorism 
Fellowship Program.
    In the counternarcotics arena, we have authorities that 
help build partner capacity to fight organized crime and drug 
trafficking groups, Sections 1033, 1004, 1022 and 1021, that 
provide training, equipment, base operations, intelligence 
sharing, and other support to our counternarcotics programs.
    We appreciate the flexibility of these counternarcotics 
authorities that also enable us to support efforts to attack 
the nexus of counterterrorism and counternarcotics, an area of 
increasing concern, particularly in Northwest Africa.
    Also providing the Department of Defense a central transfer 
account for counternarcotics, we are in a stronger position to 
manage these programs and align them with our security 
priorities. Based on our experience with this account in 
counternarcotics, we may want to consider a similar account for 
our counterterrorism programs.
    As Secretary Panetta recently made clear, the task of 
training, advising, and partnering with foreign military and 
security forces has moved from the periphery of our defense 
strategy to become a critical skill set across our armed 
forces. We have gained a great deal of experience in this in 
the last decade.
    BPC is often conducted by our Special Operations forces. 
Their training, regional orientation, and language skills make 
their operators very well prepared to do this type of activity. 
However, the general purpose forces are also preparing for BPC 
as well. Last March the U.S. Army Chief of Staff, General 
Odierno, announced that Army brigades will be realigned for a 
variety of purposes, including training and mentoring partnered 
nation security forces.
    Our track record I think has been solid. Our 1206 programs 
have been critical in supporting our efforts in Afghanistan. 
For example, in the Republic of Georgia, after many years of 
support from our 1206 program, Georgia is the largest per 
capita ISAF [International Security Assistance Force] 
contributor in the field.
    They are now able to occupy their own battle space and play 
a key role in our counterinsurgency strategy to clear, hold, 
and build. They are a very important contribution that eases 
the burden on U.S. forces in Afghanistan.
    Outside of ISAF, we have had great success in the 
Philippines against the Abu Sayyaf Group, in Yemen against AQAP 
[Al Qaeda in the Arabian Peninsula], in Colombia against the 
FARC [Revolutionary Armed Forces of Colombia] and narco-
trafficking groups, and in East Africa as Congressman Smith 
mentioned in his remarks, against Al Shabaab.
    In the coming years we can and must build on a record of 
success. Programs like 1206, 1207N, and our CN 
[counternarcotics] authorities and other institution building 
programs have been critical to develop these programs.
    After 9/11, the Congress and the Executive Branch called a 
series of audibles. The Congress created a series of temporary 
authorities for the Department of Defense, and they have 
largely succeeded in their intent. I think it is now an 
appropriate time for the Congress to consider extending some of 
the specific year-to-year authorities and perhaps make them 
permanent.
    In addition, we support finding appropriations to these 
funds such as GSCF [Global Security Contingency Fund] and 1207, 
that as the chairman mentioned, are funded out of O&M 
[Operations and Maintenance] and other accounts, to provide a 
more steady stream of appropriation. These programs are proven 
winners. Not perfect by any measure, but worthy of continued 
support and refinement.
    In conclusion, let me say that we expect combined 
operations with capable partners to continue to be an effective 
way to respond to the emerging security challenges worldwide 
and particularly in counterterrorism, but in a wide range of 
other ones. I am focusing a lot on countering the proliferation 
of WMD [weapons of mass destruction] as well. These may be 
important instruments for those programs.
    And Mr. Chairman, I am quite aware that foreign assistance 
is not always the most popular program with the public, 
especially in times of fiscal constraint. However, the programs 
that you have authorized and funded in this committee have 
brought real results to our national security. These are not 
foreign aid giveaways, but these successes should remind us 
that we cannot measure progress on a day-to-day basis.
    These efforts take many months and years to get results, 
and the most important measure of effectiveness is on the 
battlefield in denying Al Qaeda and its affiliates the ability 
to organize strikes against our homeland from foreign 
sanctuaries and in protecting our Nation from other emerging 
threats to our security.
    Mr. Chairman, Ranking Member Smith, and members of the 
committee, thank you for the opportunity to appear before you 
today and testify in the Department's efforts to build partner 
capacity. That concludes my statement.
    [The prepared statement of Secretary Sheehan can be found 
in the Appendix on page 43.]

 STATEMENT OF LTG TERRY WOLFF, USA, DIRECTOR, STRATEGIC PLANS 
    AND POLICY (J5), JOINT STAFF, U.S. DEPARTMENT OF DEFENSE

    General Wolff. Chairman McKeon, Ranking Members, members of 
the committee, thanks for the opportunity to testify here 
today, and I am pleased and honored to be here with Assistant 
Secretary Sheehan and Ms. St. Laurent from the GAO [Government 
Accountability Office], and I ask that my oral remarks be 
entered into the records.
    From our strongest allies to our newest relationships, 
strengthening partner engagement increases stability and 
security around the world, and these engagements are 
specifically constructed to enable a range of results from 
developing trust and furthering partnerships to strengthening 
coordination, interoperability, and mature allies.
    The January 12th, the Defense Strategic Guidance states 
that building partner capacity remains important for sharing 
costs and responsibilities for global leadership. Looking 
ahead, the Department and the military will remain globally 
engaged providing a stabilizing presence through a network of 
alliances and presence through partnerships and cooperative 
approaches to address common security problems.
    Across the globe we seek to be part of a security 
partnership of choice--we seek to be the security partner of 
choice, pursuing new partnerships with a growing number of 
nations. The Department and the military undertake a number of 
security cooperation activities to enable and encourage our 
foreign partners to work with us to achieve common security 
objectives, and these activities are aimed at preventing future 
crises and should these preventive efforts fail, ensuring that 
the Department and our partners are sufficiently trained and 
equipped to respond, as necessary.
    Building partner capacity is a complex interwoven system of 
multiple lines of effort and throughout the Department and 
certainly across the interagency. Our main goal is to help our 
partners develop effective and legitimate security institutions 
that can provide for their own country's internal security and 
contribute to the greater regional stability as well as 
participate in multilateral operations.
    Our coalition in Afghanistan stands as an example of the 
importance of interoperable and capable partners. Throughout 
the war, well-trained and highly effective partners have been 
fighting side by side U.S. forces. Many of our coalition 
partners deployed without caveats to some of the most dangerous 
regions of Afghanistan and performed admirably.
    As ISAF and USFOR-A [United States Forces--Afghanistan] 
reshape our presence in Afghanistan as we move towards 2015, 
our reliance on these partners will continue, and as we work 
collectively with the Afghanistans it will be important to help 
them provide for their own Nation's security.
    As we turn the page on a decade of a war, the Arab world is 
in a period of turmoil and change imparting across the region, 
as you well know, with somewhat of an uncertain future, and 
while the wave of unrest has changed the security environment, 
many of our long-standing U.S. goals in the region certainly 
endure.
    And while the new strategic guidance directs us to a re-
balance of the Asian Pacific region, we remain committed to our 
enduring strategic security interest in the Middle East, 
including maintaining freedom of navigation, confronting the 
proliferation of weapons of mass destruction, countering 
violent extremism, and continuing to advance towards Mideast 
peace process. All while supporting and watching political 
process and reform.
    The task of training and advising and partnering with 
foreign military and security forces has moved from the 
periphery to become a critical element of our strategy. The 
successful implementation of this effort has paid dividends in 
Jordan, Lebanon, Qatar, UAE [United Arab Emirates], among 
others.
    In Jordan, the evolution of the Jordanian armed forces as a 
regional enabler has facilitated their ability to house 
multilateral special operating force exercises, such as Eager 
Lion which occurred last spring. Our partnerships with the 
Lebanese armed forces through Central Command's joint 
capabilities review resulted in increased capacity to secure 
and defend their borders.
    Qatar and the UAE continue to support regional security and 
they provide support to both Operations Unified Protector and 
Enduring Freedom.
    As I turn to the Western Hemisphere we are seeking 
opportunities to build partner capacity, develop, and continue 
to develop these security partnerships and create innovative, 
low-cost, and small footprint approaches to these hemispheric 
security objectives.
    The security assistance to Colombia, Central America, and 
the Caribbean as well as the deployment at the El Salvadorian 
military in support of OAF [Operation Allied Force] and OEF 
[Operation Enduring Freedom] underscore the opportunity for 
expanding these capabilities and capacities to further regional 
stabilization efforts.
    We have tremendous partners in the U.S. Southern Command's 
area responsibility who are dedicated to our shared principles. 
Our efforts in the Asia-Pacific region are part of a 
synchronized whole-of-government approach that are aimed at 
refreshing and reinvigorating our military and our military-to-
military relationships with established allies as well as other 
key emerging partners.
    So we use building partner capacity events to engage our 
partners in this region. Exercises augment and supplement this. 
If you think about Pacific Command over the past few years, 
they have continued to grow their engagements in quality and 
quantity to achieve the best training value.
    I use RIMPAC [Rim of the Pacific] as an example, which had 
14 countries in 2010, which moved to 22 countries last year in 
the largest naval exercises that exist.
    So PACOM's [Pacific Command] regional exercise has helped 
train not only the U.S. but partner forces, and they help 
reinforce our commitment to the Asia-Pacific region, improve 
interoperability, and send a strong message to the nations 
across the region.
    The reliance on Asia represents a strategic adjustment that 
acknowledged the growing importance of the region as well as an 
area full of developing economies and the emergence of new 
security threats, but it doesn't mean a departure from 
established alliances.
    And if I think to Europe, it has to do with how we are 
adjusting our presence there and we will reduce the 
conventional army presence there to only two brigades, but that 
doesn't mean European commands, Army, Navy, Air Force, Marine 
and Special Operating Forces won't continue time-honored 
partnership efforts with NATO [North Atlantic Treaty 
Organization] allies and others through a robust exercise 
program.
    African states and regional organizations are making 
progress, as the Assistant Secretary talked about, and this is 
about helping them deal with their security concerns and 
sources of instability. Nevertheless, our partners in Africa 
still lack important capabilities and the capacity to address 
varying results of instability across the region.
    Facing this reality, the Department, in conjunction with 
State, continues to assist on the African continent to build 
their capacity to respond to these threats. These tailored 
efforts, as you know, include security assistance, exercises, 
some rotational presence, advisory efforts, and training and 
equipping, and all this is being implemented in a low-cost, 
small-footprint approach.
    So in conclusion, as we face the security challenges of the 
21st century, we have allies and partners who share an intent 
and in helping us advance this common security vision and 
shouldering a burden of global security, we believe that 
building partner capacity is a prudent investment which deepens 
our strategic ties and helps defend our interests in an area of 
diminishing resources in a fiscally constrained environment.
    Globally integrated operations do place a premium on 
partnering and our forces must be able to operate effectively 
with U.S. Government agencies, partner militaries, indigenous 
and regional stakeholders and security forces through 
technology, command, and control, and a low-cost, low-footprint 
partnering capability.
    So whatever form building partner capacity efforts take 
over time, in the end they have to be agile, flexible enough to 
respond to a rapidly changing world, and they must be conducted 
steadily over the long term to instill partner confidence with 
our commitment and reinforcement all with the State 
Department's role in leading to U.S. foreign policy efforts.
    Mr. Chairman, thank you for the opportunity to appear 
before the committee today and testify on the Department and 
our military's efforts to build partner capacity, and I do want 
to thank you and this committee for your continued support to 
our men and women in uniform. I look forward to your questions 
today.
    [The prepared statement of General Wolff can be found in 
the Appendix on page 55.]
    The Chairman. Thank you.
    Ms. St. Laurent.

  STATEMENT OF JANET ST. LAURENT, MANAGING DIRECTOR, DEFENSE 
       CAPABILITIES AND MANAGEMENT TEAM, U.S. GOVERNMENT 
                     ACCOUNTABILITY OFFICE

    Ms. St. Laurent. Chairman McKeon, Ranking Member Smith, and 
members of the committee, thank you very much for the 
opportunity to be here today to discuss DOD's efforts to build 
the security capacity of partner nations.
    Our work, over the past few years, looking at a variety of 
these programs, suggests that three key management practices 
are critical in helping DOD to achieve meaningful results and 
outcomes from these efforts. These practices include 
identifying clear goals and terminology for the various 
programs, coordinating and sharing information among program 
stakeholders, and evaluating program performance.
    The first area, setting clear goals and defining 
terminology, is important to help ensure that DOD focuses its 
activities on the highest priority activities in light of 
resource constraints rather than undertaking a diffuse set of 
activities.
    Our work has shown that some programs are well aligned with 
broader goals, while others need to be better aligned. For 
example, following our review of a joint task force in the Horn 
of Africa, we observed that the efforts being undertaken there 
needed to be reassessed and better aligned with Africa 
Command's priority missions. My understanding is that is in the 
process of being addressed. Our report on this topic was done a 
couple of years ago, so there has been some action.
    We have also found that DOD uses a wide variety of terms to 
describe its partnership building activities, and some of this 
terminology does lead to some confusion. For example, in May 
2012, we reported that the combatant commands and the military 
services had different views and perspectives about what the 
term ``Security Force Assistance'' means and how it differs 
from other DOD terms, such as ``Security Cooperation,'' which 
is somewhat of a broader term that encompasses exercises, 
military-to-military exchanges, et cetera.
    But as a result, combatant commands and the services were 
not totally clear about what steps they should take to 
implement DOD guidance on security force assistance, develop 
long-range strategies and programs, and adjust training for 
general-purpose forces which are potentially going to play a 
greater role in this area in the future. Therefore, we 
recommended that DOD clarify its intent and expectations for 
the combatant command and the Services.
    The second area involves the need for DOD components to 
effectively coordinate both within the Department and with 
civilian agencies to plan and execute security cooperation 
activities and share information. This is an area where DOD has 
taken some positive steps.
    For example, U.S. Southern Command has involved over 10 
intra-agency partners as it developed its recent planning and 
strategy documents, thereby helping to ensure a whole-of-
government approach.
    Still, opportunities for improvement remain. For instance, 
JO's [Joint Office] review of the National Guard State 
Partnership program found that the Guard bureau and combatant 
command's information systems did not always have accurate or 
consistent information on program activities and funding in 
this area.
    Moreover, in a recent review of security assistance 
programs that supply equipment and training to foreign nations, 
we found that program officials do not always have accurate 
information on the status of acquisitions and equipment 
deliveries because DOD information systems contain limited 
information and are not always kept up to date. As a result, 
some of these equipment deliveries to foreign partners have 
been delayed and additional costs have been incurred.
    The third and final area that I would like to discuss 
involves sustaining programs and measuring their results. Since 
2010, we have reported the need for improvement and evaluation 
across a range of programs, including the section 1206 Train 
and Equip Program, DOD's humanitarian assistance efforts, 
counternarcotics activities, and the National Guard State 
Partnership Program.
    Without good information on the impact of security 
assistance activities, it may be difficult for these programs 
to compete for funding during a time of tight budgets. For 
example, in 2010, we reported that DOD and other U.S. agencies 
need to place additional emphasis on how initiatives funded 
through the Section 1206 program will be evaluated and 
sustained over time.
    Only 26 of the 135 proposals we reviewed addressed how 
projects should be sustained. We understand DOD is taking some 
actions to help address this area recently.
    During our review of the National Guard State Partnership 
Program, we also heard positive, anecdotal accounts about the 
program's usefulness; however, DOD did not have a set of 
metrics and was not collecting information on results 
systematically. Without such efforts, along with greater focus 
on sustainment issues, the benefits of DOD partnership building 
activities could quickly erode.
    In conclusion, by setting clear goals, coordinating 
activities, and sharing information and evaluating progress, 
DOD can better focus its efforts on helping U.S. partners 
enhance their capabilities in meaningful ways.
    Effective management will also help DOD steward its 
resources and provide Congress with the information it needs to 
evaluate current programs, consider future funding levels, and 
modify programs and funding approaches to the extent needed.
    Thank you, Mr. Chairman. I would be happy to respond to any 
questions.
    [The prepared statement of Ms. St. Laurent can be found in 
the Appendix on page 65.]
    The Chairman. Thank you.
    Secretary Sheehan, General Wolff, yesterday this committee 
heard testimony about the readiness crisis and the significant 
fiscal difficulties facing the Defense Department. BPC 
activities, such as 1206 and the Global Security Contingency 
Fund are funded out of the operation maintenance account, which 
is already in extremis, but it will take significant further 
cuts if sequestration is implemented.
    What priority will BPC authorities get under the C.R. 
[Continuing Resolution] sequestration and shortfall in the OCO 
[Overseas Contingency Operations]? Are these activities more 
important than the training and deployments that cannot 
currently be funded?
    If the Department does plan and execute BPC activities, how 
will the Department prioritize which BPC activities it must 
complete, not simply in term of COCOM activities, but in light 
of the other O&M deficiencies that the joint staff is dealing 
with?
    Secretary Sheehan. Thank you, Mr. Chairman. It is a very 
important question as we face sequestration.
    The Secretary has been very clear about the potential 
catastrophic effect of sequestration on the Department. And we 
are going to be forced with some very difficult choices in the 
weeks and months ahead.
    As you know, Mr. Chairman, a lot of our programs in BPC are 
funded by defensewide O&M, which are not always applicable to 
supporting Navy operations. So they are not necessarily out of 
the same pot of money, but the general question that you ask in 
terms of setting priorities among these is an appropriate one 
and a difficult one. I would say, however, though, that our 
support for building partnership capacity programs remains a 
very high priority.
    When you think about these programs that are funding units 
that are directly engaged in pushing back Al Qaeda sanctuaries 
in different parts of the world, these are in direct interest 
of the United States; places where we cannot either for our own 
political decisionmaking process or the political 
decisionmaking process of the host country, that we cannot or 
should not deploy in those countries, the units that we are 
training and supporting are directly confronting those 
organizations that threaten our national security.
    So I would say, Mr. Chairman, these programs are going to 
remain a priority to support, and if you look at 1206, of 
course is a counterterrorism program, and in the other 
programs, for instance in 1207N and then Global Security 
Contingency Fund, those programs are primarily designed to 
support the specialized counterterrorism units of countries 
where there is a significant Al Qaeda presence, and so those 
will remain high-priority issues, Mr. Chairman.
    The Chairman. How would they rank as compared to readiness? 
I have heard stories that troops are not getting the same 
training that they were a year ago, that they are not having as 
much opportunity to fire their weapons and other things, cuts 
that are already being made in training which affects 
readiness. How would it compare to that?
    Secretary Sheehan. Mr. Chairman, obviously the readiness of 
our forces are always a paramount priority in the Department.
    The Chairman. Would that be like number one?
    Secretary Sheehan. I would--yes. Yes, Mr. Chairman. 
However----
    The Chairman. Thank you. Okay.
    General.
    General Wolff. Mr. Chairman, thank you.
    I would just say I think readiness would remain number one, 
and there will be a delicate balance that we will have to work 
our way through as a better understanding of the impacts are 
assessed.
    As the Assistant Secretary has said, and so have you all, 
the building partner capacity efforts are fairly small in the 
grand scheme of things, and it is fairly economical. So we have 
to figure out how to retain the appropriate balance and make 
the right trade-offs so that we can continue to deal with 
helping build those capacities out there where we watch these 
emergent threats continue to change.
    The Chairman. Most of the choices that we will be forced to 
make aren't between a good thing and a bad thing. They are 
between two good things, and that is why it is difficult.
    Ms. St. Laurent, your testimony mentioned several systemic 
challenges facing the implementation, execution, evaluation of 
the BPC authorities. What role do you think multiplicity, 
duplication, and overlap of all these authorities has in 
complicating these systematic challenges?
    Ms. St. Laurent. Thank you, Mr. Chairman.
    Many of the programs do have some similar features; 
however, they also have differences. So for example, a number 
of them are focused on enhancing counterterrorism skills. Also, 
a number of them are focused on enhancing partner nations' 
capacity to participate in stability and reconstruction 
operations.
    So to some extent there are similarities, but in other 
cases there are differences. GSCF, for example, provides 
multiyear funding, also has some additional authorities to do 
other kinds of activities. We have done a large body of work on 
duplication and overlap in Federal programs over the past few 
years at GAO in response to a congressional mandate, and I 
would like to point out a couple of key themes from that work.
    First of all, there are probably some additional 
administrative costs, legal review costs, management costs 
associated when there are large numbers of programs operating 
in a particular Government area, whether it is education and 
training programs, or in this case, security cooperation or 
building partnership activities.
    To the extent that there can be some consolidation of 
programs to create fewer broader programs, that may reduce the 
amount and time of management attention needed to focus on the 
administrative costs of those programs. So it may be possible 
to do some potential consolidation in this area.
    However, there is always a trade-off because these programs 
are not identical and they have been set up, for example, in 
some cases to focus on specific countries and in other cases to 
focus on specific types of activities, like counterterrorism.
    The Chairman. Well, we are going to have to realize that we 
will be having trade-offs, but in times of this really tight 
fiscal constraint, I think we are going to have to look at all 
possible areas where we can cut duplication certainly be one of 
those very important ones.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    If I can actually follow up on that, I guess one of the 
questions that occurs to me, why are there so many different 
authorities to accomplish a similar task? And you have 
mentioned some of the programs work better than others.
    And it is a question for Mr. Sheehan as well.
    I guess the example I would take is when you are looking 
to--you have a partner capacity challenge like we have now I 
guess in the area of North Africa, and you are trying to piece 
together. You say, well I need, I don't know, $30 million or a 
lot less than that. How do you sort of look at the menu of 
authorities and say, I can get some from here, I can get some 
from there? So how do you piece that together now?
    And second, Ms. St. Laurent, I would be interested, what 
would make more sense. You know, how would you say, well, we 
don't really need that, let's consolidate that and make it more 
simple? How do we make greater sense of these authorities?
    Because I think at the starting point, it would be hard to 
figure out how much money you have available until you go look 
at a whole wide variety of authorities and say, okay, what is 
out there.
    So there is a couple questions in there, but Mr. Sheehan, 
why don't you start.
    And then Ms. St. Laurent, if you could offer a comment on 
that, it would be great.
    Secretary Sheehan. Thank you, Congressman Smith.
    Actually the reason we have these multiple authorities, I 
believe, because this committee and others recognized that we 
had a very changing, evolving security landscape at 9/11, and 
they reacted by creating special authorities to deal with 
certain evolving threats, and I believe it has been effective.
    So yes, we may want to consolidate, but if you look at the 
purposes of these authorities, they were specifically targeted 
at very specific defense requirements; 1206 is a 
counterterrorism authority. It is very narrow in its 
application, and that is not necessarily a bad thing.
    We then went to 1207 when the Congress recognized the 
evolving threats of Al Qaeda in Yemen and the evolving threat 
of Al Shabaab in East Africa. 1207N funding was directly 
targeted to those areas, and I think that was appropriate and 
effective in focusing the resources of our Government on those 
threats.
    Counternarcotics authorities are obviously designed to 
prevent the scourge of drugs coming into the U.S., but also the 
flexibility of those authorities that enabled us to use 
counternarcotics funding on the nexus of terrorism and 
counternarcotics is a good thing.
    So yes, they are different, but I think there is sometimes 
strength in the differences of these programs and the focus 
they provide and the flexibility they provide to go after 
certain aspects of our national security.
    These programs, I want to underscore this to me as a member 
of the Department of Defense--and I also was a senior official 
in the Department of State also--these programs are very 
important to the Department of Defense. They enable the 
Department of Defense to focus its effort.
    Other programs that are run by the Department of State are 
also very, very important, but they are different. They do not 
enable the Department of Defense to respond quickly and 
effectively to these emerging threats like these authorities 
have over the past 6 or 7 years.
    So I just want to underscore that yes, they are different. 
It looks like there is some duplication, but there was purpose 
in their creation, and in my view, they have been extremely 
effective in terms--if you look at the foreign aid programs of 
the last 50 years since the old Cold War, if you look at these 
and stack them up, I would argue that they have been extremely 
effective because of their focus.
    Mr. Smith. Ms. St. Laurent, you want----
    Ms. St. Laurent. I would agree that often the reason why 
new programs do get added is because there is a gap in some of 
the existing programs and new authorities are needed. What 
sometimes happens is over time then in a particular area, there 
are a number of programs and some of the earlier programs are 
not necessarily evaluated to see if they need to continue. So I 
think this is an area of----
    Mr. Smith. Can you give us an example right now of one that 
might fall into that category within the BPC?
    Ms. St. Laurent. Well, I think one of the issues over the 
long term to think about is how, for example, there are a 
number of military-to-military exchange programs.
    So the National Guard State Partnership Program contributes 
to some extent to that, but the theater commanders also have a 
number of other tools and programs that facilitate military 
exchanges. It may be that Congress and the administrations 
decide to retain all those programs because they do serve 
different purposes, but that is an area where there is some 
commonality.
    Mr. Smith. Okay.
    Ms. St. Laurent. The other point I would like to make is 
when programs can be established to focus on providing a 
capability that we want to create in a partner country, in a 
partner country's military forces, that may be an appropriate 
way to structure programs. For example, one of the things we 
hear when we travel to the combatant commands is that they 
often have to piece together numerous funding sources to 
accomplish an objective.
    So for example, the state partnership program may pay for 
the cost of transporting National Guardsmen to participate in 
activity, but then the combatant commander also has to find 
other funding sources to help round out all the other costs 
associated with whatever the particular activity is. So to the 
extent you can focus on capabilities that could be beneficial.
    Mr. Smith. One more quick question. There is also a fine 
line between BPC programs and development programs because I 
know DOD has been, you know, there is like the MIST [Military 
Information Support Team] program for instance, and some others 
out there, and there is a lot of concern--Secretary Gates had 
expressed the concern that DOD was doing stuff that frankly the 
State Department and USAID ought to be doing, and we ought to 
transfer those authorities over to them.
    Now part of the reason that DOD's doing that is because 
they have the money. You know, sequestration could change that, 
but certainly they have more money than either State or USAID. 
You know, I know this isn't directly, you know, listed as a 
building partner capacity program within DOD, but I think they 
are very linked.
    How does the BPC programs match up with the development 
programs? And where might there be some crossing over of 
authorities there that could be rationalized?
    Ms. St. Laurent. My response to that would be that the BPC 
programs are more focused on building the capabilities of other 
countries' military forces for counterterrorism, stability 
operations, et cetera.
    However, DOD has other programs, for example, some of the 
humanitarian assistance and civic aid programs under OHDACA 
[Overseas Humanitarian, Disaster, and Civic Aid] where DOD is 
engaged in activities like building schools, building wells, 
things like that. Those activities do tend to look like some of 
the activities that AID and State Department fund. So there is 
a tremendous need to ensure that there is good coordination.
    We have found that there is room for improvement in that 
area, and we have a report on that topic that identifies where 
some of that overlap occurs and makes suggestions for enhancing 
the coordination. So that is one area where further improvement 
would be needed.
    Mr. Smith. Okay. Thank you very much. I yield back.
    The Chairman. Thank you.
    Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    And I would just say that I agree with some of the comments 
Mr. Smith made at the beginning. I think this is a very 
important part of our national security.
    From my standpoint of looking at this, it is a dangerous 
world. We can't be everywhere. Helping others develop the 
capability to do the things that need to be done makes sense, 
and part of the reason DOD is doing more of it is because they 
actually get it done; particularly on counterterrorism in a 
timely way.
    But as the chairman points out, money is tight and part of 
what we have got to look at is whether these authorities that 
have kind of sprung up in various ways and various reasons on 
an ad hoc basis can't be improved in some way, and I think that 
is an important area for us to discuss.
    Ms. St. Laurent, let me just ask a couple of quick 
questions right quick.
    You talk about metrics and I am a big fan of being able to 
measure what we are getting for our money, but as I think back 
about some of the great successes in building partnership 
capacity, Philippines, Colombia, et cetera, what metric would 
you use to measure year by year the effort that is being made 
in situations like that?
    Ms. St. Laurent. That is an excellent question, and we do 
recognize that this is a challenging area but however, there 
are different types of metrics.
    So first of all, I think it is important for all the 
programs to think about metrics and establish, perhaps, a mix 
of metrics that they are going to use to gauge program success 
and those could be a combination. For example, in the 
counternarcotics area, you know, there are both output measures 
in terms of the number of interdictions, the number of 
individuals trained, things like that. So that is one form of 
metric that is perfectly acceptable. The harder and more 
difficult metrics to get at is the actual outcome.
    So in this case for example, in training of the security 
forces, there could certainly be metrics about the numbers of 
individuals trained, the types of capabilities that they are 
trained in, but then there are ways to assess, we do it with 
our own forces through our readiness indicators, et cetera, the 
extent to which those capabilities are actually being enhanced.
    And I think of the 1206 program DOD has begun to do more of 
these evaluations. You often need some baseline data as well to 
identify where you are starting from or where these countries 
are starting from and then be able to assess the progress over 
time.
    So it is difficult to do----
    Mr. Thornberry. Yes.
    Ms. St. Laurent [continuing]. But it can be done and we 
understand that it is not necessarily going to be perfect, but 
I think it will be very important so that these programs can 
demonstrate their value.
    Mr. Thornberry. Yes, well I appreciate that.
    Let me ask one other brief question, and then I want to get 
to Mr. Sheehan on something.
    You talk about sustainability, and I think what you mean is 
starting something that the host country can then continue, but 
also something about sustainability are these programs that are 
just temporary.
    So if a program is going to expire in 3 or 4 years, how can 
we, much less the host country, have that kind of 
sustainability? So do you agree that part of the issue here is 
that these are all temporary authorities and that some sort of 
permanent, rationalized authority would make some of these 
sustainability questions a little easier to deal with?
    Ms. St. Laurent. Again, I agree. This is a challenging 
area, funding can vary from year to year. It is often 
challenging for DOD to know exactly what funding they are 
getting, when they are getting it, and to create a longer term 
plan.
    I do agree that in some cases either multiyear authority 
and more continuity in funding would be helpful. Congress has 
to evaluate that, of course, as to when they want to give that 
kind of authority and when they don't, but a key point is, 
again, sustainability of something that needs to be thought 
about at the beginning of programs----
    Mr. Thornberry. Okay----
    Ms. St. Laurent [continuing]. When they are being created.
    Mr. Thornberry. Thank you.
    Mr. Sheehan, just right quick, to fight terrorism, it is 
not always militaries in these countries that are needed.
    To fight narco-terrorism, sometimes it is Coast Guard-like 
functions and law enforcement. You know, that is what the 
global security fund was supposed to do, but in the first 
years--I don't know--I think there is a fair amount of 
disappointment in the first year. Is that fair or not?
    Secretary Sheehan. Mr. Chairman, I, as you know, I have 
been frustrated to a degree in this first year working with 
this new authority. There is no question about it. It has been 
a difficult and bumpy process. We didn't nearly get to as many 
programs as we have liked to have, but I would say that some 
good came out of this program and I think there is some 
positive aspects in the future.
    First, what we call the global soft carve-out was very, 
very important for Admiral McRaven and the special operations 
community to build the soft relationships that can be so 
crucial for our programs down the road, and we opened up some 
funding programs for that in what we call the Mainline GSCF.
    Also, we were able to work with our State Department 
partners to focus those efforts in some very important 
countries for our national defense interests. In Libya with a 
border security program and obviously with the flow of weapons 
out of southern Liberia into the Sahel, this is a major, major 
problem that is upsetting the entire balance of security in 
North Africa.
    In Nigeria, we have gotten into Nigeria with a counter-IED 
[improvised explosive device] program to start to build a 
relationship with the Nigerians, give them some capability to 
deal with Boko Haram in the northeast which is, again, is a 
looming problem for Africa that threatens the stability of that 
part of the region, not only with Al Qaeda, but with other 
aspects of sectarian violence that is very troubling.
    We also supported a program in the Philippines, a very 
important partner both for counterterrorism and maritime 
programs, and as you mentioned Mr. Chairman, the GSCF enables 
us to provide funding to other than military organizations like 
Coast Guard and police, Minister of Interior organizations that 
are very important for our counterterrorism efforts.
    So GSCF, although difficult, first year problematic did 
enable us to do some things that our authorities didn't, so I 
would give it overall a passing grade in terms of moving our 
interests forward and we hope to improve it in the years ahead.
    The Chairman. Thank you. The gentleman's time has expired.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you all for being before us.
    I have been on for 17 years on this committee and worked 
through a lot of the issues with respect to Colombia when 
President Uribe was there and some of the work that we have 
done and have gone down several times especially with some of 
the training that we have done there from a military 
standpoint.
    I mean, obviously we were in there for a lot of reasons; 
lack of stability, FARC, and others who we thought might at 
some point be negative towards the U.S. if we lost ground in 
Colombia, and of course, the drug trade, all which effect in 
particular California because we are on the Pacific.
    So my question to you is--and by the way, I also sit on 
WHINSEC [Western Hemisphere Institute for Security Cooperation] 
so you know the whole training up of--or interchangeability of 
trying to do civilian control over some of these military over 
in South America.
    And so my question is, where do you see--where do you see 
some of the programs expanding with respect to Latin America, 
Mexico, Central America, the Caribbean, where do you see some 
of the efforts happening? What do you do when countries are so 
continuously changing maybe zinging back from left to right 
politically speaking, what are the things that concern you and 
what types of programs do you see for the future going into 
these countries south of us?
    And I guess it would start with Mr. Secretary.
    Secretary Sheehan. Thank you, Congresswoman Sanchez.
    And I think by bringing up Colombia is obviously one of the 
models of our building partnership capacity. I first went to 
Colombia as a Lieutenant in 1980. I went to their commando 
school as a young Special Forces officer. At that time, we were 
beginning a partnership with the Colombians.
    Over the last 30 years has been extremely close tight, 
growing every year and this is the point I want to make here is 
that the persistent engagement with the Colombian Army and the 
Colombian police as you know, has yielded results. We have 
invested the time, the money, the relationships that has 
reshaped their army, reshaped their police dramatically since I 
was there in 1980.
    And I believe that it--Colombia represents a model for 
moving forward. What we did in Colombia is a combination of 
many, many authorities, both counterterrorism, counternarcotics 
authorities, to build their institutions from the top to the 
bottom, reforming them, ensuring that to try to protect them 
from the scourge of corruption involved in these huge sums of 
narcotics monies to strengthen their institutions to provide 
them the equipment, the training, and the wherewithal to deal 
with this nexus of narco-terrorism----
    Ms. Sanchez. So Mr. Secretary, I see something like that 
and then I see for example what has been going on in Mexico, 
which has just been so much more difficult for us to help that 
country to get things together there.
    So----
    Secretary Sheehan. I think Mexico, I think, is a very 
special, unique case as you know. They are much more sensitive 
to American military presence in their country than say, 
Colombia where we had hundreds of advisers there operating in a 
very smooth and effective way.
    Mexico is a different equation and actually what is 
interesting now to see, the folks that we worked with in 
Colombia over the years, it is easier for them to operate in 
Mexico and they are now assisting the Mexicans in providing 
their experience in dealing with this threat in Mexico. And I 
think though in Mexico, we will find a way with the new 
government with the PRI [Institutional Revolutionary Party], to 
find a way to help them deal with this scourge and we will move 
forward.
    I think perhaps one of the more promising areas or one of 
the most challenging and difficult areas would be in Central 
America, which also is now being affected by the narcotics 
trade through their territory. I think we will look to Colombia 
for examples of how we can strengthen those institutions in 
Central America that are under assault from the violence and 
the corruptive monies of the narcotics industry moving through 
there.
    And in the Andean region as well, where we have been 
engaged for a long time with the cocaine and opium threats, we 
will again look to the Colombia model to build a comprehensive 
program to strengthen their ministries to deal with the threat.
    General Wolff. I would add just one thing or two things.
    Number one, that SOUTHCOM [Southern Command] I think has it 
about right with Operation Martillo. It is a good way to 
empower others to help work these tasks, and additionally, 
there are other partners in the hemisphere who can help us. The 
Canadians want to help down in Central America as well.
    So you build this network of partners that can help you so 
it is not always you in the lead and there are others that can 
help where there is historical baggage.
    Ms. Sanchez. Thank you.
    The Chairman. Thank you.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And I want to thank Congresswoman Sanchez for raising the 
point about Plan Colombia.
    I wish the American people knew what a success that is--and 
Secretary Sheehan that you were there, that is great.
    But I know firsthand, we have exchange students who have 
stayed with us from Cali. Two of my sons went to high school as 
exchange students in Colombia to see this success, and, truly, 
the American people should be very proud of the American 
military efforts to provide stability in that extraordinary 
country.
    I know firsthand, too, of the success of the relationship 
with the Republic of Bulgaria, the Slovak Republic. I am the 
co-chair of the Bulgaria caucus.
    I am a member of the Friends of Slovakia caucus--to visit 
with our allies, our partners in Afghanistan, working side by 
side to promote peace in that country and the success there and 
the friendships that are being developed and the partnerships, 
the modernization, the professionalism, truly, they are success 
stories that should be told.
    Additionally, Secretary Sheehan, a recent Government 
Accounting Office report raised concerns about the National 
Guard State Partnership Program. GAO highlighted concerns about 
the oversight funding and training and effectiveness of the 
program.
    Do you believe it is appropriate for Congress to amend 
Title 32 in order to codify the National Guard State 
Partnership Program regarding the funding sources, purposes of 
the program, and specifying certain limitations on the use of 
funding? I appreciate very much that Congresswoman Madeleine 
Bordallo of Guam and myself have introduced legislation that I 
hope would be of assistance.
    Secretary Sheehan. I thank the congressman. I believe that 
the weaknesses of have been--excuse me. I am sorry.
    Mr. Congressman, I believe that the weaknesses identified 
by the GAO are very important for us to strengthen our programs 
with the National Guard. At this point, I am not really 
prepared to say that we are ready to make those changes, but I 
will get back to you as soon as I can to come up with the DOD's 
response to the weaknesses found in this program, and I owe you 
an answer on that, Mr. Congressman.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Wilson. And as a former National Guardsman myself, I 
know that the Guard members truly--and I--we have the A.G. 
[Adjutant General] up front and former reservists here, too, 
but good people--we have had the privilege of working with our 
partners and it can be very positive.
    A question I have for each of you; how will our 
counternarcotics funding be utilized in relation to the Afghan 
police and military in Afghanistan post-2014?
    Secretary Sheehan. Congressman, we haven't made all our 
decisions regarding the post-2014 equation right now. That is 
being carefully considered, and we will review those over the 
next weeks and months ahead, but I will say that there are some 
aspects of the counternarcotics program in Afghanistan that 
have been very, very effective, particularly where we work with 
vetted units within the Afghan Ministry of Interior, have been 
very important in tackling the narcotics threat there.
    So as we move forward with our final package for the post-
2014, we will be evaluating what role the counternarcotics 
authorities will have there.
    Mr. Wilson. And how does the counternarcotics partnership 
fit into the Administration's Asia-Pacific strategy?
    Secretary Sheehan. Mr. Congressman, I think the 
counternarcotics program is important for all of our theaters, 
the narcotics monies that fuel these organized crimes have 
often had relation with terrorist organizations, or also 
provide smuggling networks that can be used to smuggle 
terrorists, weapons of mass destruction, or other threats to 
our security are extremely important in the Pacific as well as 
our theaters. It will be central to our strategy.
    Mr. Wilson. Again, I would like to thank each of you for 
your service and it really is a success story that--I had the 
opportunity to also visit with the Armed Forces in Ghana, and 
we have had nearly a 50-year relationship that--it really would 
be positive for the American people to know, understand, and 
know how appreciative the people are and how successful.
    I yield the balance of my time.
    The Chairman. Thank you.
    Mr. Andrews.
    Mr. Andrews. Thank you, Mr. Chairman.
    Good morning, ladies and gentlemen. Thank you for your 
service.
    I want to come back to Mr. Sheehan's comments that this is 
not foreign aid. I notice that the fiscal year 2013, 1206 
notifications, the first tranche, is about $71 million, give or 
take, if you add it up. It has $7.63 million for Bulgaria. I 
think most of my constituents would say, why in God's name are 
we engaging in some joint security operation with Bulgaria? 
What does it possibly have to do with us?
    And it is a fair question. The question was answered last 
July, a bus carry--would have carried 47 Israeli tourists near 
the airport was blown up by a bomb attack.
    In recent days, the Bulgarian Government has identified 
Hezbollah as the likely perpetrator of the bomb attack. An 
account of that report from the New York Times last week says 
Bulgaria was chosen as a target not only because of the Black 
Sea's popularity with Israeli tourists, but because security 
there was more lax than in other European countries.
    It goes on to say that Bulgarians living along the scenic 
Black Sea coast did not fear for their safety or expect a 
terrorist attack. The network of terrorists around the world, 
as you well know, is agile and intelligent. It finds the soft 
spots in the world and then attacks there where it seems to be 
the most likely case.
    And one thing I think we need to keep in mind here, I think 
Mr. Thornberry said this very, very well, that this is a real 
investment in securing our citizens around the world. I did a 
little math on this. The money we are sending to Bulgaria this 
year represents $1 out of every $100,000 the United States 
spends on defense.
    So out of every $100,000 we spend in our defense budget, $1 
goes to Bulgaria or will go to Bulgaria for the purpose of 
providing interoperable command and control capabilities for 
force protection companies and military assistance teams, 
which, as a lay person, I take to mean, you know, figuring out 
the bad guys, where they are before they could strike and hurt 
other innocent people.
    I think that this points out that we have three options in 
a world that is globally dangerous. The first is to adopt a 
catastrophic strategy of passivity, just sort of hoping this 
won't happen in Croatia or Estonia or Hungary or Latvia or 
Lithuania or any of the other countries. I think that is a 
major mistake.
    The second option would be to increase the number of 
personnel we have and increase our global footprint. You know, 
put more U.S. troops or put U.S. troops in Bulgaria, Croatia, 
Estonia, Hungary. I am not for that. I think it stretches us 
economically; it creates all kinds of geopolitical problems 
that we don't need. And I think it is not--the benefit is not 
worth the cost.
    What you are suggesting and advocating for--and I agree 
with--is a strategy of making alliances and partnerships and 
enhancing the security capabilities of those strategic 
partners. Now I know a lot of that funding has come from our 
OCO accounts, or overseas contingency accounts, and those 
accounts are obviously going to drop pretty dramatically over 
time, as they should.
    What is the importance of us replacing those OCO 
expenditures with regular baseline budget expenditures in order 
to continue strengthening these partnerships?
    Secretary Sheehan. Thank you, Congressman Andrews. I 
think--I am glad you raised the issue of our support, not only 
of Bulgaria but our East European partners.
    And I think this is, again, one of the most significant 
strategic relationship changes we have made over the last 10 
years and it is based on them participating in ISAF, which 
supported 14 mostly East European countries and of course, 
these are not poor countries. So you asked the right question.
    Why would we support them? But I would say that these 
modest investments in those countries gave us the ability to 
help shape their forces so that they could participate 
successfully in ISAF, thereby reducing our requirement to put 
additional U.S. forces on the ground. I think it was an 
exceptionally good investment.
    And I think I will turn to General Wolff also to follow up 
on that, as he has much more experience on that.
    General Wolff. Sir, I just merely suggest that we have got 
about--they have about 580 or so Bulgarians in Afghanistan 
right now as part of ISAF, and so as those units have trained 
to go there, it has been about increasing and improving their 
capability so they can be a contributing member of the 
coalition. So this has grown over time as we have watched these 
countries improve their capability.
    Mr. Andrews. Thank you. I think this is a good investment.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Dr. Wenstrup.
    Dr. Wenstrup. Yes, thank you for what you are doing. I look 
at most of the work that you are doing as a form of prevention 
in many areas of the world and avoiding larger-scale conflict.
    My question is logistically does every BCP program or 
mission have an estimated end game or exit that is a goal or 
part of the metric, as we referred to it before, where we are 
planning to leave or at least have a minimal presence in these 
efforts?
    Secretary Sheehan. Congressman, the issue of exit 
strategies and exits is an appropriate one, and we want to--our 
goal, as a former Special Forces operator, our goal is to work 
ourselves out of a job. When we are effective, we are able to 
go home.
    I would caution, though, that normally the places where we 
go to operate are countries that are broken. We are not going 
to operate in Switzerland or in Germany or France. These are 
countries that are really--been broken up by years of internal 
conflicts, by scourges of narcotics or terrorism there that are 
surging through their countries.
    So it often takes a long, long time, but I think it is very 
incumbent upon us, particularly even with our East European 
allies that are so important, to work ourselves out of a job 
with those countries as they gain their footing, as they gain 
their strength, that we exit ourselves out of that job.
    General Wolff. Sir, I might say that, you know, when I look 
at the NATO class of 1999 and then the NATO class of 2004, 
having watched how they contributed in OIF [Operation Iraqi 
Freedom] in Iraq and now OEF, I think it is a success story. So 
over time, they do get better. They improve their own 
capabilities and their institutional ability to man, equip, 
train, deploy, and then employ forces, and that is kind of the 
graduation exercise, I think.
    Dr. Wenstrup. Thank you, and thank you for your efforts.
    And I yield my time.
    The Chairman. Thank you.
    Mrs. Davis.
    Mrs. Davis. Thank you very much.
    It is good to see you all here, and it is actually 
refreshing over the years, when we started talking about 
interagency and then whole of government and this is all part 
of that discussion.
    In--and I appreciate--I know that Secretary Sheehan and 
General Wolff, you both talked about the importance of and the 
role of the State Department here in building that capacity.
    And I am actually sorry, Mr. Chairman, that we weren't able 
to have the State Department here as well, because I think that 
is such an important relationship.
    There are areas--and David Berteau yesterday in our 
Emerging Threat Subcommittee, talked about the fact that the 
DOD has actually accepted missions that they weren't 
necessarily trained to handle. We know that some of the 
missions morphed and in many ways were more the mission of the 
State Department, and yet we see some reluctance, I guess, to 
give that up in some areas.
    And I wondered if you could speak to that, whether you 
think the DOD is willing to relinquish their lead in some of 
those areas?
    General Wolff. Congresswoman, if I might lead. I think a 
lot of this is, we are talking about complementary efforts in a 
way, and some of the things that the Department of State does 
through Title 22 versus what we are talking about, I think, 
create a complementary effect. And the issue here is how can 
you ensure that that is economized and complementary in nature.
    So out in Iraq and in Afghanistan we do interagency things 
at the tactical level, and then back here in Washington, we try 
to bring that together at the strategic level so that we have 
an understanding of what USAID is trying to do, as well as what 
the rest of State is doing.
    I would merely suggest that it is not about them or us. It 
is really about the complementary nature of how we do things, 
and so we routinely deal with Assistant Secretary Shapiro from 
P.M. [Political-Military Affairs] who works so much of that for 
the Department of State. So it is complementary.
    Mrs. Davis. Is there a collaboration piece of this thought 
that quite honestly, you know, whether it is cultural or 
otherwise, that there are some barriers to it that we still are 
having some difficulty addressing? And I guess if you could 
bring that, not just with necessarily with the State 
Department, but just with other entities of Government to try 
and do a number of the things that we are talking about here?
    And Ms. St. Laurent in terms of sharing that data aligning 
better, is there an area particularly that we really do need to 
focus on a lot harder than we are doing today?
    General Wolff. The efforts by the whole-of-government 
approach that was mentioned previously in what we saw both in 
Iraq and Afghanistan, ultimately, what I found in my three 
tours in Iraq was that, if you were going to try to help their 
security forces make changes, it was all going to be tied into 
the rule of law.
    And so while there, I then went to find the Treasury 
attache, because I needed help trying to work through rule of 
law issues, so we could better ensure that their security 
forces could legally apprehend bad guys in their system and 
then keep them in their jails properly, and then try them in 
their courts versus a system we would try to impose through 
really a lack of understanding of the culture. So it really is 
a whole-of-government approach that we have to better bring to 
bear.
    Secretary Sheehan. Congresswoman Davis, I would like to 
follow up on General Wolff.
    I agree that the area where we need, where there is the 
grayest area, is in the Ministry of Interiors, and the police 
law of order functions. In our Government, in the United 
States, we know our police departments, they are local, and 
they stick to criminal activity.
    In many other countries, to deal with the internal security 
threats that they have, it is a combination of their army doing 
it and police units. Some of these police units are 
paramilitary in nature, and so in that area there is a blending 
of both State functions and authorities and DOD authorities.
    And I do believe that the flexibility that we have got 
under GSCF for instance, to train Minister of Interiors that 
are conducting paramilitary operations that are much more 
similar to what we do in the U.S. military, is important.
    And so we need to stay very closely aligned with the State 
Department in those areas of where we work with Ministers of 
Interior.
    Mrs. Davis. And Ms. St. Laurent do you believe that in the 
work that you have done in trying to look at some of these 
areas, and the three practices that you identified are, what 
kind of timeline I guess would you like to see to go back and 
look at those areas where we lack some capacity to deal with, 
whether it is the data collection or alignment or whatever. 
What should we be looking at 6 months from now?
    Ms. St. Laurent. Well, I think it kind of varies by 
program. Overall, I think this is a work in progress and we do 
recognize these are very challenging areas. Putting good 
evaluation mechanisms in place, even doing the interagency 
coordination, we have seen improvement over the past few years 
in a number of areas in terms of State and DOD collaborating 
more.
    Each of the combatant commanders has a process for doing 
their security cooperation plans that they engage with State 
Department. However when we do our field work, we still see 
examples where State Department or embassies are not aware of 
things that DOD is doing.
    So it is an ongoing, ongoing challenge and at times there 
is, for example, in the Trans-Sahel area of Africa, you know, 
sometimes there is a need for specific plans to be put in 
place, for example, to get at some of the counterterrorism 
issues there and do more of a plan that recognizes both what 
State is going to bring to the table as well as DOD.
    The Chairman. Thank you very much. Gentlelady's time has 
expired.
    Mrs. Hartzler.
    Mrs. Hartzler. Thank you, Mr. Chairman.
    I was visiting with a National Guardsman the other day who 
was sharing an incident that he had heard about in Central 
America where he was shot at in a law-and-order event while on 
duty there, and it just raised the greater question I have, 
since I believe they weren't allowed to carry firearms outside 
of the line of their duty, how is our National Guard resourced 
in these partnerships around the world? And how can they 
protect themselves in these dangerous countries?
    Secretary Sheehan. Thank you, Congresswoman. It is a 
difficult issue. We put people in harm's way every day; both 
Active Duty, National Guard, Reserve, reservist, and often we 
send them to parts of the world that are dangerous and they do 
not carry weapons. That is happening right now in many parts of 
the world.
    If we feel that to go to a part of the world and they are 
not allowed to carry weapons and it becomes too dangerous, we 
will call them back. Unfortunately, though we do take some risk 
when we go to these parts of the world; criminal activity, 
terrorist activity, others, but I think we are very prudent in 
evaluating those threats and trying to protect them.
    But generally speaking in many of these countries our 
trainers and advisers will go unarmed, and it is incumbent upon 
us to make sure that we provide them the best protection they 
can and if becomes too dangerous, not to send them.
    Mrs. Hartzler. Have there been discussions in allowing them 
to carry, I mean, like concealed carry we have here between the 
foreign country as a prerequisite for us providing the aid, 
allowing our people to defend themselves or have that option?
    Secretary Sheehan. If I might add, generally, I don't know 
the exact incident to which you are referring, but normally the 
host nation has the responsibility to provide that sort of 
security for us normally when we operate there.
    In many of the countries they won't want us to bring 
weapons, because they will say, ``We will provide that security 
for you. We want your training value not to be on your own 
force of protection, but to help us in other areas, and we will 
provide that security.'' But we can certainly research the 
incident that you have referred.
    Mrs. Hartzler. I am not sure--we will consider that, but I 
thought I did raise a very important vulnerability that we are 
sending our citizen soldiers abroad and they are vulnerable to 
people.
    On another front, to what extent of all, if at all, does 
the Department of Defense conduct follow-up monitorings to 
ensure that partner military assets provided under BPC 
authorities, both equipment and trained units, are being used 
in support of U.S. national security objectives for which they 
were provided?
    Secretary Sheehan. We in the Department have recognized 
that we need to improve our ability to assess, particularly in 
for instance our 1206 programs, which is a big program. And we 
are now in the process of developing a formalized process to 
evaluate our 1206 programs, and those are currently under way. 
These weaknesses were identified by the GAO and others and we 
are taking some major steps now to put those processes in 
place.
    Mrs. Hartzler. Ms. St. Laurent, do you have anything to add 
on that?
    Ms. St. Laurent. Well, I would say there is also an upfront 
piece of this, that processes that Congress and requirements 
that Congress has put in place to ensure that we are giving the 
assistance to countries that do not engage in gross violations 
of human rights. So there is that check up front also that is a 
part of many of these programs. So that can be helpful.
    Mrs. Hartzler. Okay. What is the U.S. response if units 
trained and equipped by the U.S. misuse our equipment? And have 
there been any such misuses for instance in Yemen?
    Secretary Sheehan. I think the record in Yemen is a very 
strong one. Obviously this is an army and a police force that 
has a lot of challenges, but we have been highly encouraged by 
President Hadi, who stepped in about a year ago, in reforming, 
restructuring both the army and the other ministries to align 
itself with the professional standards that we would expect in 
one of our partners.
    So we think Yemen is moving in the right direction. Our 
investments there are paying dividends in the 
professionalization of their force, and in concrete, on the 
ground, denying of Al Qaeda sanctuary in a country that is a 
major threat to our interest.
    General Wolff. If I might say, the partnering occurs at 
multiple levels from their Ministry of Defense as well as 
enabling that ministry to lay out its way forward as it reforms 
its military and all of it is conventional forces, to the C.T. 
portion which is ongoing as well. So this will be a many-year 
project, but at President Hadi's request, Central Command has a 
team that has been working this to lay out the reorganization 
that they desire.
    Mrs. Hartzler. Thank you, Mr. Chairman. Yield back.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman.
    I want to thank all the witnesses for being here this 
afternoon. It is an important hearing.
    My colleague, Congressman Joe Wilson mentioned that he and 
I have co-authored a bill. We introduced H.R. 641. This bill 
would codify the National Guard State Partnership Program, he 
brought this up earlier, to the Secretary.
    The bill is nearly identical to Section 335 of the House-
passed fiscal year 2013 NDAA [National Defense Authorization 
Act], but it wasn't included in the final conference report, 
and I believe the State Partnership Program provides the 
Department of State and the combatant commands with a 
tremendous tool to partner with our allied nations.
    Now, the conference report required DOD, Mr. Secretary, to 
ensure compliance with the Anti-Deficiency Act. What is the 
status of this report? Does the Department of Defense place 
this in any kind of a priority? You didn't mention anything in 
your report to Congress, your testimony.
    Secretary Sheehan. Congresswoman, I did not mention it. It 
is a priority, and we do owe you an answer to that, and I will 
get back to you as soon as I can after the end of this hearing.
    [The information referred to can be found in the Appendix 
on page 93.]
    Ms. Bordallo. Thank you.
    Also, I have a question for Ms. St. Laurent of GAO. I note 
that the GAO report from May 2012 highlighted some concerns 
with the management of the state partnership program. The 
report raises concerns about the oversight framework, as well 
as the amount of guidance and training for the use of the 
program activities.
    So beyond the internal efforts, do you believe that 
additional statutory authority would be helpful to address the 
use of funds and to clarify the roles and the missions of the 
state partnership program? And would changes help to ensure 
better oversight with the program by Congress?
    Ms. St. Laurent. Thank you. Yes, you are correct. Our 
report did identify a number of areas for improvement in 
managing the state guard partnership program. Specifically, we 
talked about the need to clarify the goals of the program, and 
again, put some procedures in place to evaluate the results, as 
well as ensure that the Department has accurate data on the 
activities being funded by the program.
    Many of those issues can be resolved by DOD guidance and 
direction, and DOD is in the process of doing that. They did 
put out a new directive in December that clarifies some of 
these areas. Particularly, the guidance points out that the 
activities of the partnership program should be in support of 
the combatant commander and State Department priorities. So I 
think that is very helpful.
    While DOD guidance could probably rectify many of these 
issues, additional legislation that would clarify from a 
congressional perspective the purposes of the program and also 
reaffirm that these activities should be in support of State 
Department and also combatant commander priorities, may be 
helpful.
    Ms. Bordallo. So your answer then would be affirmative to 
better oversight with the program by Congress?
    Ms. St. Laurent. I think, again, it could help to clarify 
Congress's intent. We would say it is not absolutely necessary. 
The DOD could address many of our management issues on its own. 
If Congress chooses to clarify congressional intent and 
purpose, that would be appropriate.
    Ms. Bordallo. Thank you.
    My final question, Mr. Chairman, is for General Wolff. Can 
you comment on the value of the State partnership program to 
the combatant commanders? I have noticed a real focus and 
effort to expand this program with our allies in the Asia-
Pacific region. So from your role in the J5, can you comment on 
the value of this program in building partnerships?
    General Wolff. Thank you for the question. I see enormous 
value added. It has got to be the right mission set though. So 
we can't ask the state partnership element to try to do 
something that far exceeds its capabilities. We have seen 
phenomenal return on investment with the OMLTs [Operational 
Mentor and Liaison Team] and the POMLTs [Police Operational 
Mentor and Liaison Team] that have basically gone out and 
worked with their partner countries and then accompanied those 
forces into Afghanistan.
    So the linkage, the person-to-person linkage that is 
established by our, you know, our military service folks 
linking up with those national militaries and then accompanying 
them on a mission is quite enormous. So I see a good economy of 
effort there and an economy of opportunity.
    Ms. Bordallo. And I certainly hope that now our focus will 
be to the Asia-Pacific area, which we are looking at currently.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mrs. Walorski.
    Mrs. Walorski. Thank you, Mr. Chairman.
    My question is for Mr. Sheehan, and thanks for what you do. 
I appreciate it. Can you describe the vetting process the 
Department of Defense uses when they determine which foreign 
military or other security units receive U.S. equipment and 
training through the BPC? And how long is that process, the 
vetting process?
    Secretary Sheehan. You are referring to vetting of the 
country or vetting of the unit?
    Mrs. Walorski. Vetting of the country and then also of the 
unit. How is the determination made?
    Secretary Sheehan. We do both. What we do in my office is 
when I look at the map, I look at those parts of the world that 
are directly threatening U.S. interests both to the homeland 
and to our interests abroad, and we do an analysis based on our 
intelligence understanding of where those threats are.
    And our resources align very, very closely with those 
threats, only modified by the extent that we can work with some 
partners more than others. And some parts of the world where we 
have some threats we are unable to establish the types of 
relationships we would like to, and we work on those.
    So I would say it is directly correlated with the threat to 
our country that determines where we put our resources. That is 
where the vetting goes, and that is done in coordination with 
the Department of State, and I would say generally we have a 
tremendous consensus on that.
    When it comes to the units and the individuals, for the 
units, again, we work in the country team to make sure that we 
are identifying the proper unit that is going to accomplish our 
goal, and particularly that that unit has the right mission 
within its national force, that it has the proper commanders 
that can execute the mission, and we vet it at the country 
team.
    Then all the way down to the individuals, we are required 
under the Leahy vetting requirements to ensure that the people 
that receive our training uphold the standards of human rights 
and respect for the rule of law, and we consider those 
attributes as important as their ability to conduct combat 
operations. So there is vetting that goes from the strategic 
right down to the individual who receives the training.
    Mrs. Walorski. So how long does that take then? So if you 
identify an area, how long does that vetting process take?
    Secretary Sheehan. I would say we look at the countries 
annually, and sometimes it changes rapidly. If situations 
evolve like they have in the Sahel in the last year, we are 
able to shift resources where we see Al Qaeda making rapid 
gains.
    Although we were anticipating this, we saw it, but the 
landscape changed in North Africa since the Arab spring, and we 
have been able to respond and shift resources to that area. In 
terms of--so I think that is sort of on an annual basis.
    In terms of the vetting of the individuals, I think that 
can be done in weeks and months at the country team level.
    Mrs. Walorski. Thank you.
    I yield my time. Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chair.
    Ms. St. Laurent, can you--has GAO looked at how much total 
spending there has been for the--all the BPC authorities?
    Ms. St. Laurent. We have looked at selected aspects, the 
Section 1206 program, and certain other accounts, but--and the 
State partnership fund--but probably not the entire range of 
programs.
    Mr. Larsen. Have you made any assessment about whether 
there ought to be one person in the Pentagon who looks across 
all the BPC authorities and programs to prevent inefficiencies 
and duplications?
    Ms. St. Laurent. We haven't specifically made a 
recommendation on that. I certainly think that Mr. Sheehan's 
office is, you know, the key lead there in terms of trying to 
provide oversight.
    Mr. Larsen. Mr. Sheehan, is there a difference between 
being a key lead and actually being one person in the Pentagon 
who has authority across BPC authorities?
    Secretary Sheehan. Mr. Congressman, I think I have enough 
authority in this realm to provide oversight to most of our 
most important programs, if not all of them. I think it is 
fairly well established, although it probably could use a scrub 
to make sure that it is properly designated as the----
    Mr. Larsen. Have we let the Pentagon evolve into that, or 
is there enough direction?
    Secretary Sheehan. There is a certain degree of evolution 
that has happened over the years, but I think it is settling in 
to reside in my office and with the J5 in partnering to manage 
these programs.
    Mr. Larsen. How much total spending then in fiscal year 
2012--spending in fiscal year 2012 did you all across these 
programs have in BPC authorities?
    Secretary Sheehan. I don't have that number at my 
fingertips, sir. I will get back to you on that.
    [The information referred to can be found in the Appendix 
on page 93.]
    Mr. Larsen. Please do that. Considering countries that have 
received assistance, there has been discussion about those who 
have graduated, and it is perhaps telling that the ones you 
noted that have graduated were NATO countries that you pointed 
to, General Wolff, as examples.
    But are there countries that have flunked out, have 
graduated, or are they all similar to every parent's nightmare, 
which is the college student who is on the infinite year plan?
    General Wolff. Sir, I think we have some teenagers still in 
our midst who are learning and growing, and there are setbacks 
as they--you know, as they learn to kind of spread their wings 
a bit.
    I would use Mali as a good example where we did make some 
investment into the Mali military, and it didn't particularly 
pan out very well. We have gone back and taken a hard look at 
that. Chairman Dempsey has asked us to go do kind of a complete 
top-to-bottom review with Africa Command.
    And we have taken a hard look at why some of the previous 
investments didn't, you know, generate kind of the outcome we 
had hoped, and I think we learned from these, and there are a 
lot of reasons in this particular case. So we kind of take 
those into play and try to ensure that we can learn from that 
experience.
    Mr. Larsen. Mr. Sheehan.
    Secretary Sheehan. I would agree that Mali is clearly our 
biggest failure. We spent tens of millions of dollars in Mali 
with that army and they got their butts kicked in northern Mali 
by the Tuareg rebellion, which was subsequently highjacked by 
AQIM [Al Qaeda in the Islamic Maghreb], creating a major 
problem for us.
    However, part of the reason of that was outside of their 
control. The amount of weapons pouring in from Libya definitely 
made their job more difficult, but it is no excuse. We didn't 
do very well there, but I would contrast that with a tremendous 
record of success on the African continent in the last 5 years.
    When you look at the partnerships we have established in 
East Africa with the Ethiopians, the Ugandans, Djiboutians, the 
Burundians, the Kenyans; these have been extraordinarily 
successful in not only building the partnerships, successful 
militaries in action.
    I can tell you that one of the NATO partners told me that 
the Kenyans would never get the Kismayo in Somalia. They 
weren't capable of doing it. They weren't up to the task, that 
they were a parade ground military.
    Well, the fact of the matter is they are there. They did 
the job. We were there with them. We helped train and equip 
them, and we are very proud of our partnerships there. So we 
have some failures, but I think the record of success far 
outweighs them.
    Mr. Larsen. Great. I have a follow up. Mrs. Hartzler asked 
a question earlier that I think you gave an answer to a 
different question, and it is probably just because you didn't 
connect one and one here to get two.
    What she asked is to what extent does the DOD conduct 
follow-up monitoring to ensure partner military assets provided 
under the authorities are being used to support U.S. national 
security objectives for which they are provided, as opposed to 
being used for objectives that are not our objectives.
    You answered a question about assessing 1206 generally. 
This is a question about are the military assets we provide 
being used for the things that they are supposed to be used 
for, or are they being misused, and if they are, what are we 
doing about it?
    General Wolff. Congressman, I would say there is a time 
factor here. So, you know, as the training is applied, as the 
military grows in capability and capacity, the question then is 
at some point if they are not contributing to, let us say 
ISAF--I will use that as a very simple example, the question 
then is will those trained forces continue to contribute with 
inside their system?
    And I think the return on the investment, if the answer to 
that is yes, if we have trained them, if they have contributed 
to the mission at hand, but then the capability they bring back 
in their own military becomes, you know, additive in nature, 
then I think it is still a good investment on our part.
    Mr. Scott. [Presiding.] The gentleman's time has expired.
    Mr. Enyart.
    Mr. Enyart. Thank you, Mr. Chairman.
    Mr. Sheehan, I, too, would like to know when the SecDef 
[Secretary of Defense] plans to certify the regulations 
regarding the State partnerships programs, if you could provide 
me that, I would appreciate it.
    [The information referred to can be found in the Appendix 
on page 94.]
    Secretary Sheehan. Yes, sir.
    Mr. Enyart. And, Mr. Sheehan, I appreciate your comments, 
that these are proven programs.
    And General Wolff, I appreciate your comments that these 
are agile, flexible programs, that they need a steady state in 
order to instill partner confidence. I agree with you. I think 
that is a critical element in the success of these programs. If 
we are not building partner confidence, then we are not 
succeeding in the programs.
    In line with that--and I appreciate Mr. Thornberry's 
comments and question regarding metrics, and perhaps for Ms. 
St. Laurent, this is more anecdotal evidence, but my experience 
with the state partnership program has been that particularly 
the relationship between the Illinois National Guard and the 
Republic of Poland has been very productive--dates back to 
1993--and that when the Republic of Poland was asked to provide 
military forces into Iraq, their first requirement for that was 
we will go if the Illinois National Guard goes with us. And for 
the last 10 years, there have been Illinois National Guardsmen 
directly incorporated into that Polish battle group's staff.
    And today, as we speak, there are 17 Illinois National 
Guardsmen serving with the Poles directly incorporated into 
that battle group staff. I understand the difficulty of 
measuring quantitatively that leveraging, that synergy that has 
been developed.
    However, what I would ask you is do you have an idea or do 
you have a concept of how we might be able to measure, to 
provide a metric that will establish how that partnership 
between the National Guard, particularly the Illinois National 
Guard--and Poland in this case--has led to the success in 
Afghanistan of that Polish battle group.
    Ms. St. Laurent. Again, I think we recognized in our report 
that we heard, first of all, very positive remarks by both 
combatant command staff and others about the value of the 
program. So we did recognize that. The program itself did not 
have any systematic effort to collect data. So we think it is 
important.
    We also recognize, as I mentioned earlier, that it is 
challenging to get real good outcome measures, but there are 
some ways to do that and a variety of measures probably need to 
be put in place, both in terms just to document the range of 
activities that is going on in this particular program, in 
terms of number of contacts, the extent of contacts, because we 
found that kind of data was incomplete in both the combatant 
commands and the Guard's records.
    And I think, again, over time, there may be some ways 
through--I think you have to also maybe take a look at how 
other mil-to-mil exchange programs are evaluating their 
results, but through a combination of even surveying 
periodically other governments, certainly unless there is an 
actual operation that comes up, so you have got a data point 
that a country actually participates because of this, you 
probably can't do them on a systematic basis, but I understand 
that that is a significant outcome.
    Mr. Enyart. Thank you. I will yield back.
    The Chairman. Mr. Carson.
    Mr. Carson. Thank you, Mr. Chairman.
    We have all heard stories about how American-supplied 
weapons had been used against our troops in Afghanistan, both 
those provided to combat the Soviet Union and those recently 
that were used in ``green-on-blue'' attacks.
    Could you describe what Afghanistan has taught us about 
military aid and training and how those lessons are being used 
in pursuit of new partnerships? Do you believe that there is 
some level of inherent risk present in these partnerships that 
we should perhaps prepare for?
    Secretary Sheehan. Mr. Congressman, clearly our most 
important capacity-building exercise we face in the Department 
of Defense is with our Afghan partners there, and we have 
learned a lot, particularly in the last several years, in 
trying to accelerate their ability to take on their 
responsibilities to secure their territory within their 
country. We have learned a lot of lessons. It is a very 
dangerous and risk-filled environment.
    Obviously, and when you have a situation of internal 
stability, the enemy has the ability to penetrate the national 
security forces of the host country, particularly when they are 
so large, as in the case of Afghanistan, because of the nature 
of that threat.
    It is a very large force and they have been able to 
penetrate, which has its inherent risks of this green on blue 
or even green on green violence that we see in Afghanistan. So 
we have learned a lot, and we are making great progress, and 
but there is a lot more to do, and I will turn to General 
Wolff.
    General Wolff. Sir, I would say there is an inherent risk, 
and as the Assistant Secretary has said, we are concerned about 
it. As you know, based on the rash of incidents last fall, 
General Allen instituted a series of requirements within the 
ISAF forces, but equally important he put additional and huge 
pressure on the leadership of the Afghan national security 
forces, beginning with the Minister of Defense, all the way 
down.
    So while General Allen's directives to his command were to 
try to do everything possible to minimize this, the Afghans 
were also expected to do the same, and a lot of that had to do 
with revetting. A lot of that had to do with embedding CI 
[counterintelligence] sorts of forces in to take a look and see 
what was happening in those organizations, and doing a better 
job of looking at Afghan security forces coming back from 
leave, where we knew they were being possibly touched by 
extremists.
    Ms. St. Laurent. And also if I could just add a point, we 
just put out a report within the past few days on Afghanistan 
issues, and one of the points we made is that certainly more 
progress in trying to reach agreement with DOD and the Afghan 
Government about sharing a biometric information would really 
help also in this situation.
    Mr. Carson. Sure.
    Thank you, Mr. Chairman. I yield back my time.
    Mr. Scott. Mr. Veasey.
    Mr. Veasey. Thank you, Mr. Chairman.
    I wanted to ask you a couple of questions about Yemen. 
During the 2011 unrest in Yemen, did units trained and equipped 
by the U.S. misuse the U.S. equipment, and how extensive is the 
U.S. end use monitoring in Yemen?
    Secretary Sheehan. Thank you, Congressman.
    Let me go back and review the 2011 period. I was not on the 
job at that point, but in 2011, of course, the president at the 
time, President Saleh, was in charge. He is subsequently gone 
from that and President Hadi is now the leader. That has been a 
positive step in the right direction, and as we met--and both 
General Wolff and I mentioned before--we believe he is 
instituting the proper reforms of their military.
    And right now, over the last, I would say, last year or so, 
our partnership with the Yemeni military and some of their 
Ministry of Interior forces, have been extraordinarily 
effective and have contributed to a major progress against AQ 
in the Arabian Peninsula; AQAP, which is a major threat to U.S. 
homeland from Yemen.
    So I think that, over the last year or so, with the new 
leadership at the top, we have much more confidence that our 
training and assistance is being used properly.
    Mr. Veasey. Okay.
    My next question I wanted to ask you about drone strikes in 
southern Yemen and how are the locals--how are they perceiving 
the drone strikes? What is your----
    Secretary Sheehan. Congressman, I don't want to avoid the 
question; we normally don't discuss those types of operations 
in an unclassified setting.
    Mr. Veasey. Okay. Okay. I understand.
    Thank you.
    I yield back the time.
    Mr. Scott. Ma'am, General, Mr. Sheehan, I don't think there 
are any further questions, and thank you for your time. This 
meeting is adjourned.
    [Whereupon, at 11:46 a.m., the committee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                           February 14, 2013

=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                           February 14, 2013

=======================================================================
      
              Statement of Hon. Howard P. ``Buck'' McKeon

              Chairman, House Committee on Armed Services

                               Hearing on

          Framework for Building Partnership Capacity Programs

            and Authorities to Meet 21st Century Challenges

                           February 14, 2013

    I'd like to welcome everyone to today's hearing on a 
framework for building partnership capacity programs and 
authorities to meet 21st century challenges. Although 
``building partnership capacity'' may seem like a broad term, 
this is an important area for the committee's oversight of the 
recent defense strategy, which places great emphasis on the 
important role of partnerships to U.S. national security. 
Likewise, we have enacted significant legislation in this area 
because the committee has supported the notion that military 
commanders need to build certain capacities in partner nations 
to satisfy specific theater security requirements.
    We heard testimony yesterday about the fiscal challenges 
the military faces as it deals with implementing sequestration, 
a long-term continuing resolution, and the underresourcing of 
Overseas Contingency Operations accounts. These constraints 
will disproportionately hurt the Department's operations and 
maintenance (O&M) account, from which building partnership 
capacity authorities are also funded. Given this fiscal 
environment, the emphasis on building partnership capacity in 
last year's Defense Strategic Guidance and the global threats 
to U.S. national security interests, this hearing is the 
beginning of a continuing discussion on what is the proper role 
of these BPC authorities. In spite of our support for these 
authorities, many questions remain. What is the right amount of 
funding? What is the right balance between the Defense and 
State Departments in funding, strategizing and executing these 
authorities? What is the right level of engagement and focus by 
the combatant commands and Services on these activities? And is 
it a plausible assumption that partner nations will, in fact, 
use their new capabilities to act consistent with U.S. national 
security objectives? Congress is the ultimate decisionmaker on 
funding. Our oversight responsibilities also require us to 
understand the impact of these authorities on U.S. national 
security interests and the ability of the COCOMs and Services 
to execute these authorities without compromising other key 
priorities and core capabilities.
    Furthermore, this committee has expressed concern about the 
proliferation and duplication of BPC authorities. The 
authorities to be discussed today make up at least $750 million 
per year in authorized funding--not including over a billion a 
year in counternarcotics activities. And the trend is on the 
rise. In today's fiscal environment, it's important that the 
Defense Department, COCOMs, and Services prioritize these BPC 
authorities and activities, in coordination and consultation 
with the State Department. And it's critical that the 
Administration understand Congress's intent in authorizing 
these authorities, and the need to strategize, plan, fund, 
execute, and assess these authorities.
    To testify before the committee today, we have:

        <bullet> LMr. Michael Sheehan, Assistant Secretary of 
        Defense for Special Operations and Low-Intensity 
        Conflict;

        <bullet> LLieutenant General Terry Wolff, Director, 
        Strategic Plans and Policy (J5), Joint Staff; and

        <bullet> LMs. Janet St. Laurent, Managing Director, 
        Defense Capabilities and Management, U.S. Government 
        Accountability Office.

    I'd like to thank our witnesses for being with us today and 
to note that the Department of State, who has a key role to 
play in this discussion, was also invited to participate, but 
declined. We will continue to engage State, in partnership with 
the Foreign Affairs Committee, in this ongoing dialogue.

                      Statement of Hon. Adam Smith

           Ranking Member, House Committee on Armed Services

                               Hearing on

          Framework for Building Partnership Capacity Programs

            and Authorities to Meet 21st Century Challenges

                           February 14, 2013

    Thank you, Mr. Chairman, and thanks to our witnesses for 
appearing before us today. Building partnership capacity is an 
integral part of the way the United States addresses our 
national security concerns. However, from the outset, I want to 
be clear that while I understand that today, in this context, 
we are talking about Title X programs that are designed to 
address a specific U.S. national security concern by, with, and 
through the efforts of our foreign partners, I take a broader 
view. Instability as a byproduct of insecurity is in nobody's 
interest. Regardless whether or not we have a pressing national 
security concern in a given region at the moment, we do have an 
overarching interest in reducing instability so that it does 
not breed the conditions that develop into a pressing national 
security concern.
    But in terms of the more narrow family of BPC authorities 
under consideration in this hearing, it is important to 
understand that they are separate and distinct from what we 
think of as traditional foreign aid that responds to the needs 
our international partners perceive as their own national 
security requirements within the context of our larger U.S. 
foreign policy framework. BPC programs are designed to address 
a U.S. national security problem that a combatant commander, 
through the Secretary of Defense, has identified and thus 
enable our partners to assist us with a mutual security concern 
that is a priority for the United States. In some cases, with 
our help, they are better positioned to address it. In other 
cases, we are using an economy of force approach. But in all 
BPC cases, we are addressing a very real U.S. national security 
problem.
    In the past few years we've seen some successes in our BPC 
efforts. We've been active in the Philippines and they have 
developed a significant counter to the insurgency in Mindanao, 
for instance. With our assistance, Uganda and Burundi have 
really taken the fight to Al Shabaab in Somalia and that 
country is beginning to turn around. Certainly our European 
partners who have deployed to Afghanistan with our assistance 
have been indispensible. But we've also had some problems in 
places like Mali, where it was clear that our efforts to build 
capacity of their Army were ineffective when it came time to 
oppose AQIM's march to Bamako. So, we must be judicious about 
with whom we choose to partner, what shape that partnership 
takes, and how we evaluate the return for our effort.
    Returning to the broader view, security assistance programs 
shouldn't exist in a vacuum. In instable areas the problem is 
rarely the lack of guns. In general, our security assistance 
programs, including those conducted under Title 22, ought to be 
a component of broader efforts to reduce the conditions that 
breed instability. Where feasible, BPC programs should be 
implemented in combination with programs that reduce poverty, 
improve governance, and encourage economic development. This is 
why the State Department and USAID have an essential role in 
the development of our BPC programs. It is both a check that 
the BPC program is consistent with U.S. foreign policy and an 
opportunity to fit these activities in the regional engagement 
architecture the State Department oversees.
    Lastly, today I'd like to hear some discussion about what 
enduring form BPC authorities ought to take. Now it seems like 
it is a jumble of complementary, overlapping authorities that 
makes it a challenge to piece them together to address one 
complex security challenge. AFRICOM loves to brief a slide that 
shows a Ugandan soldier and how it took many different 
authorities to get him ready to deploy to Somalia. The Global 
Security Contingency Fund we passed into law in 2011 was 
supposed to get at some of that, but I've been disappointed 
about how it has seemed to get bogged down. Certainly, there's 
not a common understanding of its purpose, both here on the 
Hill, and, it seems, within the interagency. I'd like to get at 
some of that today.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

              WITNESS RESPONSES TO QUESTIONS ASKED DURING

                              THE HEARING

                           February 14, 2013

=======================================================================
      
             RESPONSE TO QUESTION SUBMITTED BY MS. BORDALLO

    Secretary Sheehan. As required by section 1204 of the National 
Defense Authorization Act for Fiscal Year 2013 (Public Law 112-239), 
the Department of Defense will provide on February 26, 2013, a copy of 
Department of Defense Instruction 5111.20, ``State Partnership 
Program,'' dated December 14, 2012, the regulations required by 
subsection (a) of section 1210 of the National Defense Authorization 
Act for Fiscal Year 2010 (Public Law 111-84).
    Appropriate modifications have been made, and appropriate controls 
have been issued, to ensure the compliance of the State Partnership 
Program with section 1341 of title 31, United States Code (commonly 
referred to as the ``Anti-Deficiency Act''). [See page 26.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. LARSEN
    Secretary Sheehan. Total Fiscal Year 2012 BPC authority 
expenditures included: Combating Terrorism Fellowship Program 
($32.77M); Defense Institution Reform Initiative ($12.8M); Global Train 
& Equip Program (including Section 1206 ($218.6M), \1\ Section 1207(n) 
Yemen ($75M), \2\ Section 1207(n) East Africa ($41.2M), \3\ and 
Counter-Lord's Resistance Army (CLRA) 1206 ($22.5M) \4\); Humanitarian 
& Civic Assistance ($10.2M); International Counter-drug Program 
($691.1M); Ministry of Defense Advisors Program ($11.5M); and Overseas 
Humanitarian, Disaster & Civic Aid ($117.4M). [See page 29.]
---------------------------------------------------------------------------
    \1\ This figure reflects the amount notified to Congress for 
Section 1206 programs, not actual expenditures. In the course of 
executing the program, eight (8) FY2012 Section 1206 programs notified 
early in FY2012 resulted in savings. Savings from these programs were 
used to fund programs notified in the latter half of FY2012.
    \2\ The FY2012 Section 1206 appropriation was also used to fund the 
Transitional Authorities programs under Section 1207(n) for Yemen and 
East Africa, and the CLRA program for Uganda. DOD requested a 
reprogramming action to backfill the FY2012 Section 1206 appropriation 
to fund additional proposals submitted by the GCCs in FY2012; however, 
the request was not approved.
    \3\ The FY2012 Section 1206 appropriation was also used to fund the 
Transitional Authorities programs under Section 1207(n) for Yemen and 
East Africa, and the CLRA program for Uganda. DOD requested a 
reprogramming action to backfill the FY2012 Section 1206 appropriation 
to fund additional proposals submitted by the GCCs in FY2012; however, 
the request was not approved.
    \4\ The FY2012 Section 1206 appropriation was also used to fund the 
Transitional Authorities programs under Section 1207(n) for Yemen and 
East Africa, and the CLRA program for Uganda. DOD requested a 
reprogramming action to backfill the FY2012 Section 1206 appropriation 
to fund additional proposals submitted by the GCCs in FY2012; however, 
the request was not approved.
---------------------------------------------------------------------------
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. WILSON
    Secretary Sheehan. The Department acknowledges shortfalls 
highlighted in the GAO report and the need for updated program goals, 
objectives, and oversight. As a result of the GAO report and concerns 
expressed by Congress, the Department published Department of Defense 
Instruction 5111.20, ``State Partnership Program.'' We believe this 
Instruction provides appropriate modifications to the program and that 
appropriate controls have been implemented to address those concerns.
    The Department sees the National Guard State Partnership Program 
(SPP) as a valuable tool in its security cooperation toolkit. Now with 
the new instruction in place, the Department is evaluating proposed 
legislation regarding the SPP. [See page 20.]
                                 ______
                                 
              RESPONSE TO QUESTION SUBMITTED BY MR. ENYART
    Secretary Sheehan. On December 14, 2012, the Department of Defense 
issued Department of Defense Instruction (DODI) 5111.20, ``State 
Partnership Program,'' in part to address the requirement in subsection 
1210(a) of the National Defense Authorization Act for Fiscal Year 2010 
(Public Law 111-84), that the Secretary of Defense, in consultation 
with the Secretary of State, shall prescribe regulations regarding the 
use of funds appropriated to the Department of Defense to pay the costs 
incurred by the National Guard in conducting activities under the State 
Partnership Program. I will provide a copy of the DODI to Congress on 
February 26, 2013. [See page 31.]
?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                           February 14, 2013

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. MCKEON

    Mr. McKeon. Section 1206 was originally intended as a temporary 
authority. Almost 7 years later, the authority continues with no 
foreseeable end. Does the Department view 1206 as a permanent authority 
or as a temporary authority? Is the Department examining how 1206 
activities could be incorporated into or executed under the GSCF?
    Secretary Sheehan. We view Section 1206 as a critical element of 
the DOD ``tool kit'' for responding to near-term and emerging 
counterterrorism and stability operations requirements identified by 
Geographic Combatant Commanders. The Global Security Contingency Fund 
(GSCF) authority is a 3-year pilot program with a broader scope, and we 
are in the early stages of assessing its effectiveness. Thus far, the 
multiple GSCF congressional notification and prior approval 
reprogramming requirements have proven inherently challenging, and it 
remains unknown the extent to which GSCF--as a shared authority with 
the Department of State--will address future DOD priorities that lack 
sufficient support within the Department of State. We will work closely 
with Congress and our State Department colleagues to improve the GSCF 
process throughout the pilot program. At the same time, we will 
continue to rely on the Section 1206 authority to increase capacity of 
partner nations to counter terrorist threats in North Africa, regional 
threats from Al Qaeda, and other emerging counterterrorism challenges.
    Mr. McKeon. To what degree, and in what ways, are the current 
authorities governing U.S. counterterrorism assistance in sub-Saharan 
Africa sufficient to enable a strategic, effective, and transparent 
response that is appropriately scaled to the threat? What are the key 
challenges in providing counterterrorism capacity-building assistance 
to African partners? What changes to the relevant legislative 
authorities would you recommend, if any, to address these challenges?
    Secretary Sheehan. Existing authorities, such as Section 1206, 
allow the U.S. Government to provide certain counterterrorism (CT) 
capabilities to our foreign partners, which enables U.S. Africa Command 
to work effectively toward our Nation's strategic goals in the region. 
The key challenge we have in developing CT capacity with African 
partners is in maintaining persistent, long-term engagement with them 
that endures political turmoil in the region. As we have experienced 
with certain West African partners over the past five years, all U.S. 
security assistance is normally suspended during internal political 
crisis. Section 1206 is a year-to-year, project-by-project authority; 
its effectiveness is particularly affected by such discontinuity. 
Legislation that allows greater flexibility to sustain critical partner 
relationships in these scenarios would expand policy options for long-
term capacity building in fragile states, and improve our ability to 
counter transnational terrorist groups seeking to expand their safe 
havens.
    Mr. McKeon. To what extent are host country officials involved in 
developing and evaluating the various BPC programs? For each BPC 
authority, could you please tell us at what point host nation officials 
are asked to participate and which officials do participate? What types 
of feedback do host nation officials provide, and how is it used to 
evaluate and develop lessons learned for BCP programs?
    Secretary Sheehan. We recognize that partner government buy-in is a 
critical component of developing and evaluating our Building Partner 
Capacity (BPC) programs. Host-nation engagement is among the first 
phases in security sector assistance planning, ensuring that DOD has 
adequately assessed partner capacity and capability and political will. 
We seek to ensure that the United States and the partner share common 
expectations for the use, sustainment, and evaluation of U.S. 
assistance. For each program, planning includes robust country team 
review, supported by senior defense official or security cooperation 
officer engagement with host nation officials. These engagements 
provide critical insights into the potential challenges a partner's 
security forces may encounter toward integrating new capabilities into 
existing infrastructure and applying capabilities in ways that 
complement U.S. goals and objectives. Indeed, country team discussions 
with the host nation during the planning phase often identify potential 
shortfalls in host-nation absorptive capacity or gaps within defense 
institutions (e.g., resource management or human capital management), 
which, when addressed, can ensure a better return on U.S. investments.
    Mr. McKeon. To what extent, if at all, does DOD conduct follow-up 
monitoring to ensure that partner military assets provided under BPC 
authorities, both equipment and trained units, are being used in 
support of the U.S. national security objectives for which they were 
provided?
    Secretary Sheehan. As an example, and in part as the result of a 
2010 Government Accountability Office (GAO) report on Section 1206 that 
identified a need to perform assessments, we began a two-phase process 
in late 2010 to assess Section 1206 programs. In the first phase, the 
Office of the Secretary of Defense (OSD) (SO/LIC) commissioned RAND 
Corporation to survey the Section 1206 stakeholder community and 
identify possible sources of assessment data. In the second phase, OSD 
SO/LIC commissioned SAIC to develop an assessment framework for Section 
1206 programs and to conduct assessments in five countries. A joint 
U.S. Government-SAIC team conducted assessments in the Philippines, 
Georgia, Djibouti, Tunisia, and Poland last year. SAIC submitted the 
assessment framework report, individual country reports, implementation 
guidance, and an assessment handbook to OSD Policy. We shared these 
reports as well as an overview of the assessment framework and results 
with House and Senate staff in February 2013.
    DOD's counternarcotics program measures partner nation progress 
towards desired Building Partner Capacity (BPC) end-states through 
frameworks that rely on explicit, objective, and observable 
demonstration of partners' capabilities. These frameworks are 
documented in our standard operating procedures and are intrinsically 
linked to national strategic goals and DOD counternarcotics and global 
threats strategy. Performance data are collected annually or more 
frequently as required by the specific BPC initiative and operating 
environment.
    I would also note that the Department sought to establish a 
Security Cooperation Assessments Office. We recognize the importance of 
effective assessment, monitoring, and evaluation of our BPC programs. 
Thus, we were disappointed that this Committee acceded to the Senate 
Arms Services Committee requirement communicated in the 2012 Defense 
Authorization bill for fiscal year 2012 to not fund the Security 
Cooperation Assessments Office that would have been located within OSD 
SO/LIC.
    Mr. McKeon. Recognizing that the BPC authorities were initially 
designed to respond to emerging threats, the list of BPC recipient 
countries has been fairly consistent from year to year, given ongoing 
terrorist threats in certain regions. What is the cost-benefit to being 
able to identify and budget BPC support for specific cases prior to the 
beginning of the fiscal year, and if so, would it be possible for DOD 
to submit proposed country- or region-specific programs in its annual 
budget requests, similar to the State Department's annual foreign 
operations requests?
    Secretary Sheehan. DOD recognizes the utility of prior planning, 
and we try to apply this principle to our Building Partner Capacity 
(BPC) programs, as appropriate. As I mentioned in my Statement for the 
Record, through the work of Expeditionary Requirements Generation 
Teams, Geographic Combatant Commands, and country teams, we are working 
to become more anticipatory of partner requirements. However, prior 
planning is useful only to an extent, particularly when faced with 
certain complex threats. Agile BPC authorities help us realize U.S. 
defense objectives by being more responsive to cooperation 
opportunities with like-minded partners. For example, the Section 1206 
authority provides DOD unique and critical flexibility to address 
emergent threats, allowing us to change course rapidly to tackle 
unforeseen security threats. When Umar Farouk Abdulmutallab tried to 
blow up a plane on Christmas Day 2009, DOD was working on a Section 
1206 program of assistance focused on other terrorist threats. We were 
able to shift priorities quickly and the next Section 1206 tranche of 
programs notified to Congress focused on Yemen and the threat posed by 
Al Qaeda in the Arabian Peninsula (AQAP). Maintaining flexibility to 
respond to urgent threats is key to successful execution of the Section 
1206 program.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. BARBER
    Mr. Barber. Ms. St. Laurent, in May 2010, the President released an 
updated version of his National Security Strategy. The President's 
strategy noted that American shoulders cannot continue to bear the 
burden of the challenges of the new century alone. Instead, we must 
increase our reliance on allies and partners to respond to global 
threats. To do so, requires that our allies possess the capability to 
respond to and counter these global threats. Building capacity with our 
allies and partners not only reduces the burden on our military but 
augments our foreign relations.
    While the State Department has led for the Nation in matters of 
foreign affairs, the Department of Defense has provided a substantial 
contribution to this effort. For instance, the Arizona Air National 
Guard's 162nd Fighter Wing trains 25 of our allies on various aircraft. 
Through this mission, they build relationships and understanding with 
our allies, service member to service member. As we continue to build 
partner capacity and rely more heavily on partners and allies, the U.S. 
military by default plays a larger role in our Nation's foreign 
relations. More to the point, the U.S. military has the ability to 
foster positive international relations separate from the Department of 
State. However, the Department of Defense relies on legislative 
authorities granted by this body to build partnership capacity.
    Ms. St. Laurent, what authorities need to be amended or granted to 
allow the Department of Defense to better facilitate foreign relations?
    Ms. St. Laurent. The Department of Defense (DOD) conducts its 
efforts to build the capacity of foreign partner nations under a 
variety of authorities, and GAO's prior work has found that additional 
congressional guidance for some programs could be provided to help 
clarify the scope of programs and DOD's roles and responsibilities in 
performing partner capacity building activities. For example, GAO's 
2012 report \1\ on DOD's humanitarian assistance efforts found that the 
legislation guiding DOD's humanitarian assistance efforts does not 
provide detailed guidance on the Department's role in performing these 
activities. Our report suggested that given the fiscally constrained 
environment and potential overlap in the types of peacetime, 
humanitarian, and development assistance activities being performed by 
DOD, the Department of State, and the U.S. Agency for International 
Development, DOD and other agencies involved in assistance efforts 
could benefit from additional direction from Congress. Specifically, 
our report recommended that Congress consider amending the legislation 
that supports the Overseas Humanitarian, Disaster, and Civic Aid 
(OHDACA) program to more specifically define DOD's role in humanitarian 
assistance, taking into account the roles and similar types of efforts 
performed by the civilian agencies. In another example, our 2010 report 
\2\ on DOD and the Department of State's Section 1206 security 
assistance program--used to build the capacity of foreign military 
forces in order to conduct counterterrorism operations or support U.S. 
operations--found that there were uncertainties regarding what funds 
could be used to support sustainment of projects, which can affect the 
long-term impact and effectiveness of projects. We therefore 
recommended that DOD, in consultation with Department of State, seek 
additional guidance from Congress on what funding authorities could be 
used to sustain Section 1206 projects that DOD determines are effective 
at addressing specific terrorist or stabilization threats in high 
priority countries when partner nation funds are unavailable. As of 
December 2012, DOD had not obtained such guidance from Congress, 
according to officials from the Section 1206 program office.
---------------------------------------------------------------------------
    \1\ GAO, Humanitarian and Development Assistance: Project 
Evaluations and Better Information Sharing Needed to Manage the 
Military's Efforts, GAO-12-359 (Washington, D.C.: Feb. 8, 2012).
    \2\ GAO, International Security: DOD and State Need to Improve 
Sustainment Planning and Monitoring and Evaluation for Section 1206 and 
1207 Assistance Programs, GAO-10-431 (Washington, D.C.: Apr. 15, 2010).
---------------------------------------------------------------------------
    Mr. Barber. Ms. St. Laurent, in your testimony you cited the need 
in building partner capacity to equip, advise, and assist host 
countries' security forces in becoming more proficient at providing 
security to their populations and protecting their resources and 
territories. You also state that building the security capacity of 
partner nations is a key mission area for the Defense Department and a 
worldwide priority for the United States.
    A great example of this is the success of the Iron Dome missile 
program in Israel. Developed with the Israelis and funded by the United 
States, just a few months ago in the conflict between Israel and Hamas 
in Gaza, this system showed its great promise and performed superbly. I 
believe it is a critical investment that needs to be fully funded and 
opportunities for co-production explored, so that we may continue our 
commitment and deliver a weapon system that will ensure the security, 
safety, and prosperity of Israel. As the Defense Department continues 
to emphasize building partner capacity, do you agree that the need for 
efficient and effective coordination with foreign partners, such as has 
been achieved thus far with Iron Dome, has become increasingly 
important to our defense strategy? And do you believe that the United 
States should continue investing in mutually beneficial relationships 
with our allies even in the face of our country's fiscal challenges 
because of the long-term benefit to our global security?
    Ms. St. Laurent. GAO has often reported on the importance of 
efficient and effective coordination among U.S. entities and foreign 
partners. For example, in November 2012, we reported that DOD efforts 
to provide timely security assistance to foreign partners were affected 
by communication and coordination issues. \3\ Specifically, DOD 
security cooperation officials we interviewed reported that a lack of 
information on security assistance shipment tracking resulted in 
problems such as delayed assistance, increased costs, or negative 
effects on their ability to keep partner countries informed about the 
progress of the assistance agreements. We concluded that this lack of 
timely and accurate information on security assistance agreement and 
delivery status could delay assistance, impact the costs of fielding 
equipment and training, and may adversely affect U.S. relationships 
with partner countries. Over the last several years, we have also 
reported on the importance of aligning U.S. development objectives with 
U.S. national security goals and foreign partner objectives in places 
such as Afghanistan and Iraq. \4\ For example, we noted that the roles, 
responsibilities, commitments, and activities of all the organizations 
involved in these countries, including the host governments, should be 
clearly defined and coordinated to prioritize the spending of limited 
resources and avoid unnecessary duplication. \5\
---------------------------------------------------------------------------
    \3\ GAO, Security Assistance: DOD's Ongoing Reforms Address Some 
Challenges, but Additional Information Is Needed to Further Enhance 
Program Management, GAO-13-84 (Washington, D.C.: November 16, 2012).
    \4\ GAO, Iraq and Afghanistan: Security, Economic, and Governance 
Challenges to Rebuilding Efforts Should be Addressed in U.S. 
Strategies, GAO-09-476T (Washington, D.C.: March 25, 2009). See also, 
GAO, Afghanistan Development: U.S. Efforts to Support Afghan Water 
Sector Increasing, but Improvements Needed in Planning and 
Coordination, GAO-11-138 (Washington, D.C.: November 15, 2010).
    \5\ GAO-09-476T.
---------------------------------------------------------------------------

                                  <all>

</pre></body></html>
